<html>
<title> - PROTECTING OUR GREAT LAKES: BALLAST WATER AND THE IMPACT OF INVASIVE SPECIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 PROTECTING OUR GREAT LAKES: BALLAST WATER AND THE IMPACT OF INVASIVE 
                                SPECIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON REGULATORY AFFAIRS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2005

                               __________

                           Serial No. 109-98

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-893                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                   Subcommittee on Regulatory Affairs

                 CANDICE S. MILLER, Michigan, Chairman
GINNY BROWN-WAITE, Florida           STEPHEN F. LYNCH, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
LYNN A. WESTMORELAND, Georgia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Ed Schrock, Staff Director
                Erik Glavich, Professional Staff Member
                           Alex Cooper, Clerk
                     Krista Boyd, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 9, 2005................................     1
Statement of:
    Brandt, Stephen, director, NOAA Great Lakes Environmental 
      Research Laboratory........................................    67
    Brauer, Kurt, chair, Natural Resources Committee, Michigan 
      Council of Trout Unlimited.................................   125
    Cox, Mike, attorney general, State of Michigan...............    26
    Dinsmore, Jason, policy specialist, Michigan United 
      Conservation Clubs.........................................   118
    Metcalf, Kathy, director, maritime affairs, Chamber of 
      Shipping of America........................................    99
    Moore, Commander Kathleen, Chief, Environmental Standards 
      Division, U.S. Coast Guard.................................    61
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, GAO...........................................    37
    Schornack, Dennis L., chairman, U.S. Section International 
      Joint Commission...........................................    93
    Weakley, James H.I., president, Lake Carriers' Association...   112
Letters, statements, etc., submitted for the record by:
    Brandt, Stephen, director, NOAA Great Lakes Environmental 
      Research Laboratory, prepared statement of.................    70
    Brauer, Kurt, chair, Natural Resources Committee, Michigan 
      Council of Trout Unlimited, prepared statement of..........   127
    Cox, Mike, attorney general, State of Michigan, prepared 
      statement of...............................................    31
    Dinsmore, Jason, policy specialist, Michigan United 
      Conservation Clubs, prepared statement of..................   121
    Metcalf, Kathy, director, maritime affairs, Chamber of 
      Shipping of America, prepared statement of.................   102
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............     6
    Moore, Commander Kathleen, Chief, Environmental Standards 
      Division, U.S. Coast Guard, prepared statement of..........    64
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, GAO, prepared statement of....................    40
    Schornack, Dennis L., chairman, U.S. Section International 
      Joint Commission, prepared statement of....................    95
    Weakley, James H.I., president, Lake Carriers' Association, 
      prepared statement of......................................   114


 PROTECTING OUR GREAT LAKES: BALLAST WATER AND THE IMPACT OF INVASIVE 
                                SPECIES

                              ----------                              


                       FRIDAY, SEPTEMBER 9, 2005

                  House of Representatives,
                Subcommittee on Regulatory Affairs,
                             Committee on Government Reform
                                                    Fair Haven, MI.
    The subcommittee met, pursuant to notice, at 2:03 p.m., at 
the Anchor Bay High School Auditorium, 6319 County Line Road, 
Fair Haven, MI, Hon. Candice S. Miller (chairman of the 
subcommittee) presiding.
    Present: Representatives Miller, Lynch, and Westmoreland.
    Staff present: Edward Schrock, staff director; Erik 
Glavich, professional staff member; Alex Cooper, clerk; and 
Krista Boyd, minority counsel.
    Mrs. Miller. Good afternoon. There are some making sure 
we're organized here and ready to go.
    I certainly want to first of all bring the Subcommittee on 
Regulatory Affairs to order. And, I want to thank everybody for 
attending today's hearing.
    This is quite a remarkable thing, actually. We're trying to 
bring Washington to Michigan, in the 10th Congressional 
District of Michigan----
    Voice. Turn up the volume.
    Mrs. Miller [continuing]. Specifically.
    Can you hear us there?
    Voice. No.
    Mrs. Miller. Whoever's in charge of sound, maybe I need to 
bring it a little closer to me.
    How about that? Is that helpful?
    Voice. Yeah.
    Mrs. Miller. All right. We'll try to remember to talk into 
the microphones here as we can.
    Today we're going to be having a hearing on invasive 
species, on the kind of impact, and principally negative, in 
many cases very negative, that invasive species have on our 
magnificent Great Lakes, and principally through ballast water.
    And I certainly want to take a few moments to thank many of 
the individuals who have helped us to make this hearing 
possible today.
    And let me thank everybody who's involved with the Anchor 
Bay School District certainly. And in particular, I want to 
thank Anchor Bay High School for all of their assistance, and 
the Principal here, Judy Stefanac. She was just here a moment 
ago, and I see her out in the audience there.
    And she gave me a fantastic tour of this school. And it 
certainly is not what the high schools that many of us are used 
to or think about where we came from. It's just a fantastic 
facility. The community is so very proud of it.
    I think that this hearing today will hopefully provide the 
citizens of the 10th Congressional District, and the people 
throughout the southeast Michigan, and hopefully the students, 
in particular the students, an opportunity to understand a 
little bit about the Federal Government, and how it works, and 
the hearing process, and etc. And we wanted to have this 
hearing in a high school so students would be able to 
understand that things that happen at the Federal level and in 
Washington, DC, seem so far away from them, but in fact they're 
very, very pertinent to their lives and do have an impact. And 
I know we have some students in the audience today. And 
hopefully they'll understand the government. It certainly does 
matter in their lives; and we do live in a democracy. And 
perhaps my generation has not done the best job of being a 
steward of our environment, but we look forward to the next 
generation, you young people that join with us today or who 
will be using this hearing as part of your curriculum, that 
we're looking to you to do a better job, perhaps, than what 
we've done. And we're interested in trying to afford you the 
information that we can about a very, very important issue in 
our area.
    As well, this hearing is being broadcast through a five-
county area, all the way up to the very tip of the thumb, and 
will as I said, be used in high schools throughout the entire 
district, the 10th District.
    I also want to thank Mark Cummins of the Macomb 
Intermediate School District, who was very helpful today, and 
Terry Harrington of the St. Clair County Regional Educational 
Service Agency. These are the individuals who have really 
helped to put together the broadcast and the mechanics, if you 
will, of orchestrating today's proceedings.
    And we have a number of witnesses. And I will introduce 
each of them as we begin our hearing. They've come from across 
Michigan, from other parts of our country, from Washington, DC. 
And all of them want to talk about ballast water management, 
the Regulatory Drain Board that our Nation has, and the impact 
of the invasive species on our economy and our environment.
    As I stated, we're prepared to examine the Federal 
Government's efforts to stop the threat that invasive species 
pose on our Great Lakes and on our Nation's very delicate 
aquatic ecosystems. This issue is vitally important to all 
residents of the Great Lakes region, not just those of us in 
Michigan, but every one of the States, and the Canadian 
government as well in the entire basin.
    Lake St. Clair, in fact, where the dreaded zebra mussels 
were first discovered, was just a few miles from where we're 
sitting here today. This is a very little tiny thing, about the 
size of a thumbnail, maybe even smaller, that has really 
devastated the lakes and started a chain of events that has 
lead us here today.
    Since the zebra mussel's introduction in 1988, the threat 
and the impact of endangered species has not subsided. The 
zebra mussels has spread to waterways throughout the eastern 
United States; and non-native species such as the round goby 
are absolutely devastating our native fish populations and 
destroying the ecosystem as we know it.
    In fact experts, and we'll hear some of this testimony 
today, actually estimate that we currently have over 180 
different types of invasive species in the Great Lakes.
    With the opening of the St. Lawrence Seaway back in 1959, 
trade through the Great Lakes expanded. And, of course, this 
was a very good thing for Michigan, and the Great Lakes basin 
trade, particularly on our Great Lakes as a very important 
artery and economic impetus for us. On the other hand, with the 
increase of this trade, the threat of invasive species exploded 
as well, and it continues to be as high as ever.
    In response to the introduction of the zebra mussels, 
Congress directed the Coast Guard to establish ballast water 
management regulations for ships carrying ballast water that 
enter the Great Lakes after operating outside of U.S. waters. 
The Coast Guard issued final mandatory regulations in April 
1993. Realizing that the threat posed by invasive species was 
not contained strictly to the Great Lakes, Congress then 
directed the Coast Guard to expand its regulations to a 
national level. In response, the Coast Guard issued an interim 
rule which established voluntary national guidelines in 1999. 
These voluntarily guidelines became mandatory effective on 
September 27, 2004.
    The Coast Guard is a Federal agency that wears many, many 
hats. And we're going to have an opportunity to introduce a 
representative from the Coast Guard here today. And although we 
may have some tough questions about how the Coast Guard is 
handling invasive species, let me just say particularly this 
week, after the unbelievable work that we have seen 
demonstrated by the U.S. Coast Guard in response to Hurricane 
Katrina on our gulf, it has been an amazing thing for the 
entire Nation to watch the Coast Guard. Not only as we see you 
on the front line of the war on terror, but now as the Coast 
Guard has responded, as we would have always expected you to 
do, but you did so unbelievably well, and honorably, and 
bravely, saving literally tens of thousands of our fellow 
Americans in the gulf.
    And I think we, on behalf of a very grateful Nation, to 
Commander Moore of the Coast Guard, I'd like to thank you and 
the entire Coast Guard, as you've been a wonderful thing to 
see, I think, the Coast Guard and how they responded as well.
    But in addition to all of this, the Congress has also given 
the Coast Guard the responsibility of regulating many aspects 
of shipping on U.S. water, and that includes the discharge of 
ballast water. And in the 15 years since Congress has directed 
the Coast Guard to deal with the invasive species issues, 
critics have charged that the Coast Guard efforts have been 
ineffective. The threat has not decreased, and regulations 
exempt heavily loaded ships with no ballast water on board. 
These ships are commonly called NOBOBs. They account for 90 
percent of all ships entering into the Great Lakes system. 
That's NOBOBs, as I say, no ballast water on board. And they 
contain residual water in their ballast tank, and pose a very 
great threat.
    On August 31st, just a week and a half ago, the Coast Guard 
issued voluntarily guidelines for NOBOBs. But critics argue 
that more aggressive action is needed now. And I think in light 
of the fact that we're just a week and a half after those 
regulations had been issued, it's very important that we have 
this hearing. It's very timely today.
    Currently the only accepted ballast water management 
practice is a mid-ocean ballast water exchange. There exists no 
Coast Guard approved alternate methods to treat ballast water, 
mainly because the Coast Guard has been unable to approve any 
methods because it's failed to establish a measurable standard 
for ballast water that's safe to be discharged. This standard, 
which is referred to as a ``discharge standard,'' is necessary 
if the shipping industry is to develop and to install 
technologies that can treat ballast water as effectively as a 
ballast water exchange. The international community established 
its own discharge standard in February 2004. The Coast Guard 
led these international efforts.
    Clearly there is much more action that needs to take place 
at home, and there's signs that the Coast Guard is getting 
ready to issue its own discharge standard. And I certainly hope 
that Commander Moore, who joins us today, can expand a little 
bit on the efforts the Coast Guard is taking to improve the 
ballast water regulatory framework.
    In the Great Lakes region, it's been estimated that $8 
billion has been spent thus far since the zebra mussel's 
introduction, to mitigate the damage that it has caused; with 
another $5 billion price tag in the next 10 years. Scientists 
have estimated that 10 billion round gobies reside in the 
northern half of Lake Erie alone.
    Invasive species destroy our ecosystems. And unless the 
door is shut, these very nasty little creatures will continue 
to hitch a ride in ballast tanks across the Atlantic, and find 
new homes right here in our magnificent Great Lakes.
    The State understands this. In fact, no less than 10 States 
have passed laws governing ballast water. The State of 
Michigan, for example, has passed a law that defines ballast 
water as pollution. And we require ships to obtain a permit 
before it can be discharged.
    Additionally, a coalition of Great Lakes States petitioned 
the Coast Guard in 2004, asking them to act on the problems 
posed by NOBOBs. These States have even reported legal efforts 
to get the EPA to regulate ballast water through the Clean 
Water Act.
    And why have the States taken these measures? Because they 
are very, very frustrated. They've seen the devastating impact 
of invasive species, and they feel as though the Federal 
Government has not done its job to help them.
    Preventing the introduction of endangered species requires 
a cooperative effort between different Federal agencies, 
States, and certainly the international community. It will take 
a lot of work to remove this threat posed by the ballast water 
of ships.
    So we've seen the problem, and now we need to work together 
to find a solution.
    And I'm pleased that we've been able to assemble a fine 
young panel of witnesses. We're looking forward to hearing from 
all of them so we can have a better understanding of what we 
might be able to do at the congressional level of the Federal 
Government. And we want to thank all of you for coming.
    And before we start here, I also want to extend my 
gratitude to the other members of the subcommittee who have 
joined with us here today, my other two colleagues. First of 
all a ranking member, Stephen Lynch, Congressman Stephen Lynch 
is from Massachusetts. And let me just give you a brief 
introduction of him.
    Congressman Lynch was actually first born into the U.S. 
Congress in October 2001, and has been re-elected twice. He 
represents Massachusetts 9th Congressional District, and he's a 
lifelong resident of south Boston. Prior to his career as a 
public servant, Ranking Member Lynch worked as a structural 
iron worker for 18 years, and he served as the president of the 
Iron Workers Union. And as an iron worker, he worked at the 
General Motors in Framingham, MA, and the General Dynamics 
Shipyard in Quincy, and also the U.S. Steel Plant in Gary, IN.
    Mr. Lynch continues to live in south Boston with his wife 
Margaret and their 5-year-old daughter Victoria.
    We certainly welcome you, Congressman Lynch. We appreciate 
you coming so very, very much.
    And also Congressman Lynn Westmoreland, who joins us from 
Georgia actually. He entered the Congress this year. He's a 
freshman. He said he wanted to come to Congress so he could be 
referred to as a freshman again, it's like being in high 
school. But he represents Georgia's 8th Congressional District, 
which stretches from the suburbs of Atlanta to Macon into 
Columbus. He served in the Georgia State House of 
Representatives for 12 years, the last 3 years as minority 
leader there before coming to Washington. And, actually before 
becoming a public servant, he started his own building company.
    And if you've had a chance to see some of the things that 
are happening in northern Macomb County, see, we have a lot of 
building going on there which we're very proud of.
    So Mr. Westmoreland and his wife Joan have been married for 
36 years. They have three children, and four grandchildren. So 
we welcome them both here as well.
    And I see that our State Attorney General Mike Cox has also 
joined us, and we're going to be hearing from him in just a 
moment. We appreciate you all coming.
    [The prepared statement of Hon. Candice S. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.001
    
    [GRAPHIC] [TIFF OMITTED] T4893.002
    
    [GRAPHIC] [TIFF OMITTED] T4893.003
    
    [GRAPHIC] [TIFF OMITTED] T4893.004
    
    [GRAPHIC] [TIFF OMITTED] T4893.005
    
    [GRAPHIC] [TIFF OMITTED] T4893.006
    
    [GRAPHIC] [TIFF OMITTED] T4893.007
    
    [GRAPHIC] [TIFF OMITTED] T4893.008
    
    [GRAPHIC] [TIFF OMITTED] T4893.009
    
    [GRAPHIC] [TIFF OMITTED] T4893.010
    
    [GRAPHIC] [TIFF OMITTED] T4893.011
    
    [GRAPHIC] [TIFF OMITTED] T4893.012
    
    [GRAPHIC] [TIFF OMITTED] T4893.013
    
    [GRAPHIC] [TIFF OMITTED] T4893.014
    
    [GRAPHIC] [TIFF OMITTED] T4893.015
    
    [GRAPHIC] [TIFF OMITTED] T4893.016
    
    [GRAPHIC] [TIFF OMITTED] T4893.017
    
    [GRAPHIC] [TIFF OMITTED] T4893.018
    
    Mrs. Miller. I'd like to now recognize the ranking member 
for his opening statement. Congressman Lynch.
    Mr. Lynch. Thank you, Chairman Miller.
    First of all, I want to thank you, chairman, and also Julie 
Stefanac, for being a wonderful host. And I know this is 
televised in five districts in this area. I hope it's not 
televised in my district, because if people see what you have 
here for a beautiful high school, I think I would be under a 
lot of pressure to replicate this in my district. It's 
absolutely a magnificent example of the priority that Michigan 
has given to education.
    Mrs. Miller. Thank you.
    Mr. Lynch. And I think it's a wonderful credit to your 
political leadership here for having done so. I do appreciate 
your leadership. I think I speak for all of the Members of 
Congress in appreciation of Chairman Miller and what she has 
done to bring the issue of invasive species contaminating our 
waterways, not just Great Lakes.
    But I actually have the honor of representing the Port of 
Boston, and we've just spent several billion dollars on 
cleaning up that port, and now we are in fear of the fact that 
our waterways, our beautiful harbor, may be contaminated, 
compromised by invasive species, just as the people who love 
and who appreciate the beauty of the Great Lakes are concerned 
about the situation around their homes and in their 
neighborhoods.
    These invasive species are wreaking havoc on bodies of 
water all across the country. And according to the EPA, 
invasive species are the second leading cause of species 
extension, and a loss of biodiversity in aquatic and marine 
environments around the world.
    As I said, I have--my office is actually about 50 yards 
from Boston Harbor. And we just spent so much money on that 
system, and now the ecosystem there is under the same threat 
that Lake Michigan and all the Great Lakes are facing. So we 
have something in common here. And my hope is that by joining 
together in this community and bringing some of these issues to 
the forefront, following the leadership of Chairman Miller, 
that we can find a solution not only for the Great Lakes, but 
also for the Port of Boston, for Boston Harbor, and for all of 
our waterways.
    I understand that the Great Lakes may be more vulnerable in 
a way than Boston Harbor, because we have a flushing effect, if 
you will, because of the tides coming in and out, that the 
Great Lakes don't have that, that protective characteristic. 
And so it's even more important that we find a solution here to 
reduce the level of invasive species coming in, and also to 
prevent that from occurring in the future.
    But the most significant source of invasive species is the 
ballast water that ships take on and discharge as they load and 
unload cargo. And it's important that shipping, while it is 
allowed to continue, and the Great Lakes communities as well as 
the east and west coast and the gulf coast rely heavily on 
shipping. Ships must be required to manage their ballast water 
to prevent the spread of invasive species to the fullest extent 
possible.
    I'm interested in hearing--we have a great list of 
witnesses here. I'm interested in hearing what the Coast Guard 
plans to do to insure that Federal regulations are implemented 
in full effect, and that they are strengthened to prevent the 
invasive species from compromising our waterways. I know this 
is a pressing problem for the Great Lakes and for other parts 
of the country, and we need Federal regulation, a sort of a 
blanket approach, to have a full core press on this type of 
danger.
    There appear to be some technologies that are out there 
that show promise for preventing the transfer of invasive 
species. I'm looking forward to hearing from the witnesses 
today what kind of progress is being made in terms of that 
technology.
    I'm also looking forward to hearing from the witnesses 
where they believe we can best focus our resources and efforts. 
Because if we focus on this problem as we should, I firmly 
believe that this is solvable. It's solvable. It's a matter of 
resources and of applying ourselves to the problem.
    And I think under the leadership of Chairman Miller, we'll 
be able to do that. And I want to thank you, Madam Chair, and I 
yield back the balance of my time.
    Mrs. Miller. Thank you very much. And now I'd like to 
recognize Congressman Westmoreland for an opening statement.
    Mr. Westmoreland. Thank you, Chairman Miller. And for all 
you people in this audience and school children watching, 
you'll probably get a sense of the different dialects across 
this country with Mr. Lynch and myself. It's probably from one 
end of the spectrum to the other.
    But I want to thank Chairman Miller for doing this, and for 
allowing me to be on the subcommittee.
    When I was first elected to Congress, I sat down next to 
Chairman Miller, and we were talking about different things, 
and started talking about government regulations. And she 
explained to me that she was going to be chairman of this 
subcommittee. I immediately went back to the office and wrote a 
letter requesting to be on the subcommittee, because I know 
she's got a heart to do the right thing. And in looking at some 
of the over regulations that we have in this country, and in 
this case what seems to be maybe some under regulation.
    I, too, as Ranking Member Lynch, I have some ports. We have 
Savannah, Garden City, and Brunswick in Georgia. We too have 
the flushing effect that the Great Lakes don't have. But still, 
I think this needs to be an interest to us all.
    This is going to be a learning opportunity for me. I have 
dealt with the shiny-rayed pocketbook mussel, which effects our 
water sources in Georgia, and Alabama, and in the South. I've 
never heard of the zebra mussels and some of these other 
invasive species that you have here. So I look forward to 
listening to the witnesses, especially listening to the Coast 
Guard on what their answers might be.
    And I again thank Chairman Miller for giving me this 
opportunity to be here.
    Mrs. Miller. Thank you both. We appreciate that.
    Now, because the Government Reform Committee is an 
oversight committee and has subpoena authority, it's our 
practice in Washington or field hearings to swear in all of our 
witnesses. So if you could please stand and raise your right 
hands?
    [Witnesses sworn.]
    Mrs. Miller. Thank you very much.
    Our first witness on our panel today that joins us, is our 
Attorney General Mike Cox. And we certainly do appreciate him 
joining with us today.
    General Cox was sworn into office on January 1, 2003. He 
served in the U.S. Marines prior to receiving his law degree 
from the University of Michigan. Attorney General Cox began 
work at the Wayne County Prosecutor's Office in Detroit, where 
he prosecuted cases of organized crime. He actually tried over 
125 jury trials, with a 90 percent conviction rate as well. He 
was appointed as the director of the Wayne County Prosecutor's 
Homicide Unit in 2002.
    Under his leadership, the Michigan Attorney General's 
office has been extremely active in its efforts to protect the 
Great Lakes. In July 2004, Attorney General Cox helped lead an 
effort by the Great Lakes to improve the Federal Government's 
actions pertaining to ballast water. And I know he's filed 
several lawsuits in that regard, and has had some success on 
that. We'll be very interested to hear how all of that is 
going.
    I am aware that you have a very busy schedule today, so if 
you would like to have us ask you questions at the conclusion 
of your statement, and then you can be on your way, or if you'd 
like to stay, certainly it's your call, sir, whatever your 
schedule permits. We're delighted to have you here.

   STATEMENT OF MIKE COX, ATTORNEY GENERAL, STATE OF MICHIGAN

    Mr. Cox. Well, thank you, Chairman Miller, and thank you 
for having me here. I can make myself available. Whatever works 
for the committee, the best workings of the committee.
    Thank you Anchor Bay Schools for welcoming us all here. And 
of course thank you, Congressman Lynch, for coming here; as 
well, Congressman Westmoreland.
    You know, when we all discuss the pollution, I think most 
of us get a visual image in our mind here of what that means. 
And I expect that, Congressman Lynch, when you were back as an 
iron worker in south Boston, it might be urban smog, maybe for 
you that's the image of pollution; or Congressman Westmoreland, 
when you were a builder back in Georgia, maybe it was you're 
developing some land and you see some chemical waste in a pond. 
Or, for others it might be acid rain polluting a forest.
    But for me, one of the strongest images of my life actually 
stems from when I was 7, 8 years old, back in the late 60's, 
early 70's, right not too far from here on Lake Huron, where we 
used to visit. I grew up in Detroit and I would go walking 
along the shores of Lake Huron, and there'd be alewives. And 2 
weeks of every year, they'd wash up on the shore. And there 
would be masses of smelly dying alewives, which are not native 
invasive species to Michigan. They actually started off on the 
Atlantic coast in Maine.
    And they were a huge problem for us back then. They were 
getting in the hatcheries of other native fish. And it wasn't 
until the State of Michigan, and I think it was the Federal 
Government also spent millions of dollars replacing and 
replenishing trout and salmon stock, which are predators of 
theirs, that we were able to get the problem under control. And 
actually, now we've kind of reduced them to just being bait.
    But nonetheless, it took a huge intervention of the State 
government in order to solve that problem of the invasive 
species coming here to the shores of our Great Lakes. And in my 
mind, that picture, that image, that's in my mind of pollution, 
because that is biological pollution.
    And it's--you know, when we think of pollution in a 
polluted waterway, or other forms of pollution, generally over 
time pollution degrades and declines. Well, invasive species or 
aquatic nuisance species as we call them here in the State, 
they're a biological pollutant that does not decline or 
degrade. As a matter of fact, if not fought, they multiply, and 
they become a bigger problem.
    You know today, as has been pointed out to you by 
Congressman Lynch, you know, invasive species, the species, 
aquatic nuisance species are carried in the ballast of larger 
ocean-going vessels. When they enter the Great Lakes, aquatic 
nuisance species wreak extraordinarily social, economic and 
ecological havoc here in Michigan, and all along the eight 
States of the Great Lakes. These biological pollutants not only 
threaten the Great Lakes' ecosystem, but they also pose a 
significant economic threat right here to the State of 
Michigan. Commercial and recreational fishing, boating, 
beaches, tourism, all suffer as a result of the harmful effects 
of these species.
    The estimated annual costs of controlling just one aquatic 
nuisance species, the zebra mussels, in the Great Lakes that 
Congressman Westmoreland alluded to, is estimated anywhere 
between $100 and $400 million.
    These aquatic nuisance species continue to enter the Great 
Lakes at, quite frankly, an alarming rate. Back in February 
1999, President Clinton at that point thought it was a big 
enough problem that he issued an Executive order directing 10 
Federal agencies to do--in essence, to do something about it. 
The Federal agencies have done little to prevent the 
introduction or further introduction of aquatic nuisance 
species via ballast water discharges even though it's some 6\1/
2\ years that have passed.
    In fact, since 1973, the EPA has exempted regulation of 
``discharges incidental to normal operation of a vessel'' from 
the Clean Water Act's Normal Permit Discharge Elimination 
System Program. The agency, the EPA, applied this exemption to 
the ballast water discharges even though, as I said, these 
discharges introduce a biological pollutant.
    Now as you're aware, the Coast Guard has been given 
authority to regulate ballast water discharges throughout what 
was originally the Nonindigenous Aquatic Nuisance Prevention 
and Control Act of 1990. However, this regulatory scheme has 
been ineffective and continues to be ineffective, primarily 
because the Coast Guard's existing rules only apply to vessels 
that carry ballast water. By the current practice, the Coast 
Guard allows ships to evade any treatment by declaring that 
they have no ballast on board, or the term of art is NOBOB. And 
seventy percent of the ships entering the Great Lakes, are 
NOBOB ships. And despite a claim of being a NOBOB vessel or 
ship, they still contain residual water and sludge that 
contains aquatic nuisance species.
    In a 2005 report, the Great Lakes Environmental Research 
Lab concluded that NOBOB ships do introduce aquatic nuisance 
species to the Great Lakes. And the greatest threat of invasive 
species induction--excuse me, introduction to the Great Lakes, 
is ships with fresh or low salinity residual ballast water.
    Thus, the Federal Governments actions have been completely 
unsuccessful. Biological pollutants continue to enter the Great 
Lakes because of the combination of EPA inaction and the Coast 
Guard's NOBOB exemption.
    As of 2001, the Great Lakes Environmental Research Lab of 
the National Oceanic and Atmospheric Administration estimated 
that there were 162 aquatic nuisance species in the Great 
Lakes. That was as of 4 years ago. And at least 12 that entered 
since 1990.
    On July 12, 2004, a petition was filed with the Coast Guard 
requesting rulemaking to close the NOBOB loophole. The Coast 
Guard solicited public comment, as is required, on the best way 
to address the NOBOB problem. And in July of this year, 2 
months ago, stated it was developing a ballast water discharge 
standard to be used to approve ballast water treatment systems. 
Yet, thus far, it has not committed itself to any time line to 
adopt this.
    Last week the Coast Guard issued best management practices 
for NOBOB vessels entering the Great Lakes. Unfortunately, 
though, this document is described as a policy. And the best 
management practices are only recommendations that cannot be 
enforced.
    I do not believe the Coast Guard should be the primary 
Federal agency. Nonetheless, until--excuse me, in my mind, the 
Coast Guard should not be the primary agency, the EPA should. 
But until the EPA enacts much needed regulation, the Coast 
Guard should quickly close the NOBOB loophole. It is essential 
to the future of our Great Lakes that we close our borders 
literally to these invasive species.
    My primary recommendation, however, as I alluded to, is 
that the EPA move quickly to regulate ballast water discharges 
under the Clean Water Act. In July 2004, my office, along with 
attorney generals from four other Great Lakes States, submitted 
the amicus brief in a lawsuit that was going on out in San 
Francisco, in the Federal Court there for the Northern District 
of California, arguing that the EPA's exemption for ballast 
water discharges was unlawful and should be repealed. The court 
ruled this past March, on March 31, 2005, that the EPA's 
exemption was without authority, and ordered the EPA to repeal 
the exemption. My office, along with other Great Lakes 
attorneys generals, has now been granted intervener status as 
parties, and we've asked the court for a short timeline to 
force the EPA to promulgate the final regulations.
    However, in the interim, EPA has the authority right now to 
quickly develop general permits for classes of discharges. In 
addition, the EPA can require vessels to employ best management 
practices, such as ballast water exchange in the ocean, which 
is a generally beneficial management practice that can reduce 
the risk of invasive species of these biological pollutants 
right now.
    The court will soon determine how the EPA's to regulate 
ballast water discharges under the Clean Water Act. While they 
wait for effective Federal action, States such as Michigan can 
and should be able to try and slow down the explosion of these 
invasive species, of these aquatic nuisance species.
    With my support, Michigan recently amended its primary 
water quality protection statute to require permits starting in 
January 2007. These permits will require all ocean-going 
vessels operating in Michigan ports, to show that they do not 
discharge aquatic nuisance species, or that they use 
environmentally sound technologies and methods to prevent the 
discharge of these invasive species in ballast water. In 
addition, the law creates a multi-state coalition which 
promotes existing laws that prohibit biological pollutants from 
being discharged. I supported this legislation, and I believe 
it is the best way currently available to protect the Great 
Lakes, given the lack of adequate Federal regulation.
    And unfortunately Senate bill 363, which is talked about 
when we talk about this area of regulation, the Ballast Water 
Management Act of 2005, is currently being--as I said, it's 
currently being considered by the Senate Commerce Committee in 
Washington. Senate bill 363 would prohibit Michigan from 
imposing any requirement under its new State law that are 
inconsistent with Federal requirements. Senate bill 363 would 
also prohibit the EPA, the U.S. Environmental Protection Agency 
from regulating ballast water discharges under the Clean Water 
Act. In addition, new water treatment standards applying to all 
vessels wouldn't be required until 2016, some 11 years from 
now. Moreover, the bill would continue to keep--excuse me. The 
bill would keep current Coast Guard regulations for Great Lakes 
in place, including the NOBOB loophole, for at least a year.
    I've joined other Great Lakes States' attorney generals in 
a joint letter conveying our problems, our dismay with the 
bill, especially since it would remove the Clean Water Act 
jurisdiction and would preclude States from acting where the 
Federal Government has not acted.
    Our Great Lakes face devastating consequences if we 
continue to allow these biological pollutants to enter our 
waters unchecked. Michigan's citizens daily rely on the Great 
Lakes for recreation, for drinking water, for environmental 
benefits, and for its sustainable economic growth.
    The Federal Government has failed to protect our natural 
resources from these devastating--from the devastating effects 
of these biological pollutants. Effective methods that address 
aquatic nuisance species are within our reach as a State and as 
a Nation. And I encourage all of us gathered here today to work 
together to see them implemented. We must act to protect our 
natural resources, so that our children do not have to remember 
the beaches of their childhood covered in rotting biological 
pollution.
    That's the end of my prepared statement. But this morning 
when I woke up, if I can indulge--beg your indulgence for 2 
more minutes. This morning when I woke up, I remembered--or, I 
read in the Detroit News, a local paper, on the first day of my 
vacation for this summer, which was August 14th. I was just 
hanging around Detroit, and I was going to take my kids 
fishing, and swimming, and that sort of stuff in the area.
    At any rate, in the Sunday Detroit News, they had an 
article about foreign species crowding out local fish here in 
Michigan. And it was really pretty interesting. I read the 
article, and I had to pull it out to bring here today.
    And in this article from the Detroit News, and just 4 weeks 
ago, on the west side of Michigan we have the Lake Michigan. 
And Lake Michigan, a lot of the problems that happen in Lake 
Michigan, transfer over to inland lakes. Well, there's a town 
called Muskegon on the west--the west coast of Michigan, on 
Lake Michigan. And there's a Muskegon Lake, which historically 
was a great fishing area. For years and years, you could get 
perch and pickerel, and all sorts of fish out there.
    At any rate, every year there's a guy there who started up 
a voluntarily fish tournament. And grew--this year there were 
400 fisherman, and that he had organized friends and fellow 
fishermen. And they had a fishing contest. And, you know, it 
used to be that they would--they would try and get perch and 
pickerel and trout. Well, this year, these 400 anglers, these 
400 fishermen caught 5,000 gobies, some 460 pounds of gobies, 
which are worthless as food for humans, and until the mid 
eighties, had never been seen in the Great Lakes. They've 
caught one perch. I think that dramatically outlines, better 
than my testimony could, this problem and the need for the 
Federal Government to do something about it.
    Thank you very much.
    Mrs. Miller. Thank you, Attorney General Cox. We certainly 
appreciate your attendance.
    [The prepared statement of Mr. Cox follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.019
    
    [GRAPHIC] [TIFF OMITTED] T4893.020
    
    [GRAPHIC] [TIFF OMITTED] T4893.021
    
    [GRAPHIC] [TIFF OMITTED] T4893.022
    
    [GRAPHIC] [TIFF OMITTED] T4893.023
    
    [GRAPHIC] [TIFF OMITTED] T4893.024
    
    Mrs. Miller. And we will just proceed then with the rest of 
our witnesses, and if you can stay for questions, that would be 
very helpful for the panel here.
    And in the interest of time, I might mention for the 
others, I've just been informed--actually, we have these little 
lights that we have set up here. When you see the red light, 
your 5 minutes is up. I'm not going to cut you off on your 5 
minutes, but maybe you would like to try to roll through here a 
bit if we could.
    Our next witness is Robin Nazzaro. And she is the Director 
with the Natural Resources and Environmental team of the U.S. 
Government Accountability Office. She's responsible for the 
GAO's work on Federal land management issues such as forest and 
wildfire management, invasive and endangered species, mining 
and grazing, national parks and recreation areas, and Indian 
affairs with the Department of the Interior and the Department 
of the Agriculture's Forest Service.
    She has worked at the GAO since 1979, has demonstrated a 
wealth of audit experience, staff office service, and the 
diversity of issue area expertise. She has received numerous 
GAO honors, including the Comptroller General's Meritorious 
Service Award for sustained leadership, and two assisted 
Comptroller General Awards for exceptional contributions in 
strategic planning.
    We certainly thank you for your presence today, and look 
forward to your testimony.

STATEMENT OF ROBIN M. NAZZARO, DIRECTOR, NATURAL RESOURCES AND 
                        ENVIRONMENT, GAO

    Ms. Nazarene. Thank you, Madam Chairman. Thank you, Madam 
Chairman and members of the subcommittee.
    I'm pleased to be here today to discuss the Federal 
Government's response and actions taken to address the 
introduction of harmful species from ballast water in ships. 
Numerous harmful species have been introduced into U.S. waters 
from ballast water. These invasive non-native species have 
caused serious damage, that's been noted today, to ecosystems, 
businesses, and recreation.
    GAO reported in 2002 that at least 160 non-native aquatic 
species have become established here in the Great Lakes since 
the 1800's. The ballast water used on ships to maintain safe 
operations, is considered a major source of these 
introductions. The effects are not trivial. The zebra mussel 
alone was estimated to have cost over $400--$750 million in 
costs between 1989 and 2000.
    Today I will summarize the progress made in ballast water 
management, and discuss issues that pose challenges for the 
Federal Government's program for preventing the introduction of 
invasive species into U.S. waters from ships' ballast water.
    In summary, the Federal Government has been taking numerous 
steps to address the introduction of potentially invasive 
species from ballast water in ships for well over a decade. In 
1990, in response to the introduction of the zebra mussel, the 
Congress passed the Nonindigenous Nuisance Aquatic Prevention 
and Control Act. This act focused on preventing the 
introduction of organisms from ballast water into the Great 
Lakes. In 1996, the National Invasive Species Act re-authorized 
and amended the 1990 act, covering--expanding coverage of 
ballast water management to all of the Nation's waters.
    In response to these laws, the Coast Guard has developed a 
series of regulations that have called for both voluntarily and 
mandatory actions. The most important requirements include a 
call for ships to exchange their ballast water in the open 
ocean, at least 200 nautical miles from the shore. The law also 
allows ships to retain their ballast on board or to treat it 
with some other method than the exchange. However, as has been 
noted, no alternative methods have been approved for use, 
meaning that exchange is the current option for treating 
ballast water. As has been noted on the international front, 
the United Nation's International Maritime Organization has 
been working toward a global solution. In February 2004, the 
IMO adopted a convention on ballast water management. But at 
the moment, only one country has ratified this convention.
    Despite the steps that have been taken, U.S. waters are 
still vulnerable to invasive species for several reasons. 
First, many ships with potentially harmful organisms in their 
ballast tanks are exempt from or are not covered by the 
mandatory regulations calling for ballast water exchange.
    One category of ships not covered by the ballast water 
exchange requirement, are those without pumpable ballast on 
board, the so-called NOBOBs that have been mentioned today. 
These ships are of a particular concern for the Great Lakes, 
for about 80 percent of the ships that are entering from 
outside the 200 nautical mile zone fall into this category.
    A second category of ships not covered by the requirement 
is those that do not travel more than 200 nautical miles from 
shore, such as ships traveling from one U.S. port to another, 
whether they be Georgia or Massachusetts, and those coming from 
foreign waters such as Central or South America.
    Second, despite being authorized to do so, the Coast Guard 
has not established alternate discharge zones that could be 
used by ships that are unable to conduct ballast water 
exchanges.
    Third, there are numerous concerns that ballast water 
exchange is not always effective at removing or killing 
potentially invasive species. Specifically, ballast pumps are 
not always able to remove all of the original water, sediment 
or associated organisms. In addition, elevated levels of 
salinity do not necessarily kill all forms of potentially 
invasive organisms.
    Technologies are being developed that show some progress in 
providing more effective removal of potentially invasive 
species. Treatment options include water filtration systems, 
ultraviolet radiation, chlorine, heat, or ozone. However, the 
development of such technology is a daunting task, given the 
many operational constraints under which these technologies 
must operate on board ships.
    The primary impediment to developing these technologies, 
however, is the lack of a discharge standard for how clean the 
ballast water must be. This standard would help developers 
determine how effective their technologies need to be. The 
Coast Guard has been working on the discharge standard for 
several years, but has not committed to an issuance date.
    In conclusion, without this standard, or the development of 
additional technology, ballast water exchange is still the only 
available treatment method for reducing the amount of 
potentially invasive species in ships' ballast water. Thus, 
U.S. waters remain vulnerable to invasive species carried 
through this mechanism.
    Madam Chairman, this concludes my statement. I would be 
pleased to answer any questions that you or members of the 
subcommittee may have.
    Mrs. Miller. Thank you very much.
    [The prepared statement of Ms. Nazzaro follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.025
    
    [GRAPHIC] [TIFF OMITTED] T4893.026
    
    [GRAPHIC] [TIFF OMITTED] T4893.027
    
    [GRAPHIC] [TIFF OMITTED] T4893.028
    
    [GRAPHIC] [TIFF OMITTED] T4893.029
    
    [GRAPHIC] [TIFF OMITTED] T4893.030
    
    [GRAPHIC] [TIFF OMITTED] T4893.031
    
    [GRAPHIC] [TIFF OMITTED] T4893.032
    
    [GRAPHIC] [TIFF OMITTED] T4893.033
    
    [GRAPHIC] [TIFF OMITTED] T4893.034
    
    [GRAPHIC] [TIFF OMITTED] T4893.035
    
    [GRAPHIC] [TIFF OMITTED] T4893.036
    
    [GRAPHIC] [TIFF OMITTED] T4893.037
    
    [GRAPHIC] [TIFF OMITTED] T4893.038
    
    [GRAPHIC] [TIFF OMITTED] T4893.039
    
    [GRAPHIC] [TIFF OMITTED] T4893.040
    
    [GRAPHIC] [TIFF OMITTED] T4893.041
    
    [GRAPHIC] [TIFF OMITTED] T4893.042
    
    [GRAPHIC] [TIFF OMITTED] T4893.043
    
    [GRAPHIC] [TIFF OMITTED] T4893.044
    
    [GRAPHIC] [TIFF OMITTED] T4893.045
    
    Mrs. Miller. Our next witness is Commander Kathleen Moore. 
On June 1, 2003, Commander Moore was appointed Chief of the 
Environmental Standards Division for the U.S. Coast Guard, 
which develops policy and regulations concerning marine 
environmental protection, both in the United States and as well 
as abroad. She also serves as a Program Manager for the Coast 
Guard's Aquatic Nuisance Species Program.
    She obtained a Bachelor of Science degree in Mechanical 
Engineering and a Master's of Science degree in Engineering 
Management from the University of Maryland, as well as a 
Masters in Maritime--or, Marine Affairs from the University of 
Rhode Island. She left the aerospace industry to join the Coast 
Guard in 1990, and has since then completed staff tours at the 
Marine Safety Center and field tours in California and Puerto 
Rico.
    We certainly look forward to your testimony at this time, 
Commander.

  STATEMENT OF COMMANDER KATHLEEN MOORE, CHIEF, ENVIRONMENTAL 
              STANDARDS DIVISION, U.S. COAST GUARD

    Commander Moore. Good afternoon, Madam Chairman, 
distinguished members of the subcommittee.
    I am Kathy Moore, Chief of the Environmental Standards 
Division at Coast Guard Headquarters, and a manager of the 
Coast Guard's Aquatic Nuisance Species Ballast Water Management 
Program. It is my pleasure to appear before you today to 
provide the Coast Guard's views on ballast water management.
    And I would like to also begin by saying thank you very 
much for your very kind words. There are over 4,000 Coast Guard 
personnel, both in and out of uniform, that are working very 
diligently with great determination and endurance responding to 
the tragedy in the gulf.
    The administration shares this committee's concerns with 
the significant environmental and economic damage that has been 
caused by aquatic invasive species, and recognizes that ballast 
water discharge is one of the important pathways for such 
invasions.
    The Coast Guard is a leader in protecting America's 
waterways and maritime environment, and we take great pride in 
providing valuable services that preserve and protect our 
Nation's waters, making them cleaner, safer, and more secure. 
The Coast Guard remains committed to providing a leadership 
role on ballast water management, both domestically and 
internationally, and working diligently with all stakeholders 
to protect U.S. waters from the introduction of aquatic 
invasive species.
    We recognize the practice of ballast water exchange is not 
the ideal prevention method to remove the risk of ANS 
introductions into ballast water. And in early 2001, through a 
series of domestic and international workshops, concluded that 
a ballast water discharge standard should address all organisms 
at all life stages, that it be concentration-based, it needs to 
be set at values that are scientifically sound, environmentally 
protective, and enforceable. These criteria formed our approach 
in international negotiations at the International Maritime 
Organization, as well as our rulemaking, to develop a ballast 
water discharge standard.
    We are currently completing an Environmental Impact 
Statement that analyzes the environmental impact of several 
alternative water discharge standards, as well as the cost-
benefit analysis for implementing the rulemaking.
    In February 2004, it's already been said the Coast Guard 
lead an interagency U.S. delegation to the IMO diplomatic 
conference on Ballast Water Management for Ships. The 
conference adopted the International Convention for the Control 
and Management of Ship's Ballast Water and Sediments, which is 
a significant step forward in the international effort to 
combat aquatic invasive species introduced through ships' 
ballast water. The U.S. delegation played a major role in 
developing the convention's basic structure and insuring that a 
number of key objectives were included in this new treaty.
    One significant provision of the convention calls for ships 
to meet a ballast water discharge standard according to a 
schedule of fixed dates, beginning with certain ships 
constructed in 2009. These fixed dates serve as a signal both 
to the shipping industry and emerging ballast water treatment 
industry of the need for investment, plans, and ballast water 
treatment equipment inventory to meet the ballast water 
management requirements.
    Another key feature of the implementation schedule, is the 
phasing out of the ballast water exchange, which means most 
ballast water discharges will eventually have to meet a maximum 
concentration discharge standard. The standard adopted by IMO, 
as I said, is concentration-based, which was desired by the 
United States because the concentration approach provides for a 
more effective monitoring of compliance and a more uniform 
approach to the performance and protective level of reduction/
risk across all vessels. The standard was adopted and, when met 
by all vessels, will likely reduce the discharges of 
potentially aquatic invasive species via ballast water, 
compared to the ballast practices of mid-ocean ballast water 
exchange.
    An issue of relevance specifically to our Great Lakes, is 
the need for management strategies for the vessels that enter 
the Great Lakes with no ballast on board, referred to as NOBOB 
vessels. In 1993, ballast water management regulations were 
promulgated for entry into the Great Lakes addressing ballast 
water discharge by its vessels with full ballast tanks. These 
regulations remain the most stringent in the world for 
restricting the discharge of unmanaged ballast water. However, 
many vessels enter the Great Lakes system fully loaded with 
cargo, having discharged their ballast water to carry cargo. 
Only unpumpable residual water and sediment remain in these 
ballast tanks, and their residuals provide the opportunity for 
reduction--introduction of aquatic invasive species as their 
vessels conduct cargo operations, and take on and discharge 
ballast water in our Great Lakes.
    This issue was the main focus of the NOBOB project 
performed by NOAA's Great Lakes Environmental Research Lab and 
its research partners. The project was begun in 2000, with 
funding by the Coast Guard, NOAA, and EPA. And the project 
results suggested the discharges of residual waters that are 
fresh or brackish, that is low salinity, have the highest risk 
of introducing aquatic invasive species into our Great Lakes.
    The Coast Guard has considered short-term and long-term 
strategies to address this risk, and in August 2005 announced 
its new policy implementing best management practices. The 
policy encourages vessels that may eventually enter our Great 
Lakes to conduct mid-ocean ballast water exchange, exchanging 
ballast on voyages whenever possible. And if such ballast water 
exchange is not possible, to flush those empty tanks with the 
ocean ballast water to reduce the concentration of organisms 
through discharge and salinity shock. The consistent 
application of these practices should result in the elimination 
of residual water in the ballast tanks, and significantly 
reduce the risk of these residuals providing the opportunity 
for aquatic invasive species introductions.
    The Coast Guard will be sampling vessels entering the Great 
Lakes to test the salinity of these residuals and to assess the 
application rate of these practices. In addition, there is work 
currently underway to assess the effectiveness of increasing 
salinity on fresh water organisms commonly found in ballast 
tank residual water.
    Thank you for the opportunity to provide these comments on 
the Coast Guard's Ballast Water Management Program. The Coast 
Guard looks forward to working with Congress. It will continue 
our ongoing efforts to implement an effective ballast 
management water regime. And I'll be happy to answer any 
questions you may have.
    Mrs. Miller. Thank you, Commander. We appreciate your 
comments.
    [The prepared statement of Commander Moore follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.046
    
    [GRAPHIC] [TIFF OMITTED] T4893.047
    
    [GRAPHIC] [TIFF OMITTED] T4893.048
    
    Mrs. Miller. And our final witness to make an opening 
remark, is Doctor Stephen Brandt. Doctor Brandt serves as the 
director of the Great Lakes Environmental Research Laboratory, 
which is the National Oceanic and Atmospheric Administration's 
leading institution for aquatic invasive species research. He 
received a Ph.D in oceanography and limnology, with a Ph.D 
minor in statistical analyses and experimental design from the 
University of Wisconsin.
    He's been involved in research on the biology of the Great 
Lakes region for almost 30 years, and has created the NOAA 
National Center for Invasive Species Research. He's also been 
the chief scientist on over 80 research cruises, spent over 700 
days at sea, published over 70 papers, and given over 200 
scientific presentations.
    So we certainly welcome you, Doctor, and look forward to 
your testimony, sir.

    STATEMENT OF STEPHEN BRANDT, DIRECTOR, NOAA GREAT LAKES 
               ENVIRONMENTAL RESEARCH LABORATORY

    Mr. Brandt. Thank you. Good afternoon, Chairman Miller, and 
members of the subcommittee.
    I appreciate the opportunity to talk about NOAA's research 
on the invasive species in the Great Lakes, particularly 
regarding no ballast on board or NOBOB vessels, ballast water 
treatment technology, and Federal coordination.
    About 180 nonindigenous species are already established in 
the Great Lakes. This is a serious issue. As the gateway to 
America's heartland, the Great Lakes also provide a pathway for 
invasive species to spread throughout the United States, as 
zebra mussels have done since their first appearance in the 
nearby Lake St. Clair. This invasion led directly to the 
passage of the Nonindigenous Aquatic Nuisance Prevention and 
Control Act of 1990.
    NOAA's primary role in the development of ballast water 
management regulations, is to provide the research and 
scientific information to make sound policies and to develop 
preventive measures and treatments that are effective.
    The Great Lakes Environmental Research Laboratory [GLERL], 
is NOAA's leading institution for aquatic invasive research. It 
also houses the NOAA national center for research on invasive 
species, to insure that NOAA's research is coordinated across 
regions where it has a broad range of disciplines and strong 
partnerships with over 150 institutions which insures that NOAA 
meets its legislative mandate to conduct invasive species 
research, all of which falls within the priority set by the ANS 
task force and the National Management Plan.
    As heard, commercial vessel ballast tanks are, by far, the 
most significant means for moving aquatic species around the 
globe. Ballast water exchange is the only approved management 
method. However, only a few studies on a few organisms on a few 
vessels have examined the effectiveness of open ocean ballast 
exchange. And results vary widely from 35 to 95 percent 
effectiveness. The lack of detailed assessments of this 
process, is a fundamental gap in comparing the value of ballast 
water exchange to alternative strategies.
    The overall ballast water issue is complicated by the 
architecture of the ballast tank, which differs from vessel to 
vessel. Tanks are often honeycombed and not designed for easy 
access for thorough flushing. Reliable and appropriate 
treatment of ballast water is still in development.
    In 1996, Congress set up the ballast water management 
demonstration program to develop new management technologies. 
This competitive grants program was administered by the U.S. 
Fish and Wildlife Service and NOAA, with the Maritime 
Administration providing testing platforms. To date we have 
sponsored 54 projects on 8 of the 9 technologies that the 
National Research Council listed as having potential 
application. Among these are filtration, thermos treatment, 
bioscience and others. Additionally no sea grant program has 
sponsored 23 ballast-related projects. Although several 
technologies hold promise, none of them were fully tested at 
full-scale operational conditions.
    Invasions have continued since ballast exchange began. 
Recent data show that 90 percent of the foreign vessels 
entering the Great Lakes are NOBOB, or declaring no ballast on 
board. However, some of the water and sediment remains in 
ballast tanks even after complete pump out. These vessels are 
not covered by ballast water exchange regulations. Water that 
is eventually taken on to main trim can mix with these 
residuals and be discharged later. The magnitude of such risks 
for invasion is not clear.
    NOAA, through GLERL, is conducting the first ever research 
on NOBOBs, and just completed a large program to characterize 
the biota found in NOBOB vessels, to assess its sediment 
accumulation versus ballast management practices, and to 
evaluate the effectiveness of mid-ocean exchange.
    In the 42 NOBOB vessels surveyed, water and sediment 
residuals contained in the first group of live biota, including 
dozens of noninvasive species not yet recorded in the Great 
Lakes. And some of those were in resting stages, which are 
extremely resistant to adverse conditions. Detailed reports are 
available in an extensive report published in May.
    Other major conclusions were simply: NOBOB vessels are 
effective for nonindigenous species; lowering the risk of 
NOBOB-related invasive species can be accomplished with 
diligent application of good management practices, and perhaps 
salt water flushing and ballast water exchange itself isn't 
perfect.
    In many ways, the recent progress we have seen, is the 
result of a virtually unprecedented degree of cooperation by a 
number of different Federal agencies, universities, and the 
private sector. This cooperation's been fostered by the 
interagency Aquatic Nuisance Species Task Force, chaired by 
NOAA and the Fish and Wildlife Service, in addition to the 
National Invasive Species Council, which also helps with 
coordinating actions and policy more broadly across 13 Federal 
departments and agencies.
    Another recent example of coordination occurred when the 11 
agency regional working group established by the President's 
Great Lakes Executive order developed a rapid response and 
coordinated a sampling program in response to the discovery of 
a snake head fish off Chicago, that within days confirmed that 
this was an isolated case. Indeed, the NOBOB investigation 
itself that we talked about, is another good example of 
collaboration between NOAA, the Great Lakes Protection Fund, 
Coast Guard and EPA, universities, and very importantly, the 
shipping community.
    In summary, we are optimistic that ongoing research and 
collaboration will lead to a number of promising technologies 
in the future. This concludes my testimony, and I'll be happy 
to respond to any questions that you might have.
    Mrs. Miller. Thank you.
    [The prepared statement of Mr. Brandt follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.049
    
    [GRAPHIC] [TIFF OMITTED] T4893.050
    
    [GRAPHIC] [TIFF OMITTED] T4893.051
    
    [GRAPHIC] [TIFF OMITTED] T4893.052
    
    [GRAPHIC] [TIFF OMITTED] T4893.053
    
    [GRAPHIC] [TIFF OMITTED] T4893.054
    
    [GRAPHIC] [TIFF OMITTED] T4893.055
    
    [GRAPHIC] [TIFF OMITTED] T4893.056
    
    [GRAPHIC] [TIFF OMITTED] T4893.057
    
    [GRAPHIC] [TIFF OMITTED] T4893.058
    
    [GRAPHIC] [TIFF OMITTED] T4893.059
    
    [GRAPHIC] [TIFF OMITTED] T4893.060
    
    [GRAPHIC] [TIFF OMITTED] T4893.061
    
    Mrs. Miller. Again, we appreciate you all being here. I'm 
sure we have plenty of questions for all of you. I might start 
with Attorney General Mike Cox, if I could.
    I know that you've been following this very closely, and 
you've certainly been a leader in our State, and from a legal 
standpoint as well in working with the other attorney generals 
that have concerns in their States as well. Is there any legal 
authority that the State of Michigan would have, perhaps the 
DEQ or what have you, to actually board a ship out in the Great 
Lakes to see if they're in compliance with our State statute?
    Mr. Cox. Well, Chairman Miller, the recently passed bill, 
now statute, will allow our Michigan Department of 
Environmental Quality to board and to permit ships that travel 
in the Great Lakes. You know, without a doubt, once that starts 
happening, our statute will be challenged by the shipping 
industry saying that we're violating their interstate commerce 
laws. We are confident we can defend that statute, and we are 
working with a number of other States to come up with model 
statutes--and furthermore, under the--under this Clean Air Act 
and Clean Water Act, we worked--our Department of Environmental 
Quality worked with the EPA already, and has delegated 
authority. But that being said, and I don't want to be 
redundant, but there really is a need here first and foremost 
for Congress to get the EPA to act, OK, for long-term, and in 
the interim, the Coast Guard.
    And it's kind of interesting. I looked at some prior GAO 
reports or testimony from the U.S. Senate by Doctor Nazzaro's 
predecessor. And in 2003, it was estimated 70 percent of the 
ships in the Great Lakes were NOBOBs. Doctor Nazzaro told us it 
was 80 percent, and then Doctor Brandt told us it was 90 
percent, which if anything seems to indicate an increasing 
vulnerability by the Great Lakes to NOBOB, for the problem of 
NOBOBs and the need for the Coast Guard to do something now.
    The GAO report back in 2003 also pointed out the real 
problem as to why I and other attorneys generals had to get 
involved. The Federal efforts don't seem to have clear goals, 
and there's no way of measuring that they're getting anywhere. 
You know, the EPA promulgating rules could change all of that, 
or the Congress forcing the EPA to do that could change all of 
that.
    The result would be, Michigan wouldn't have to worry about 
this sort of problem. Indiana wouldn't have to worry about this 
sort of problem; Ohio, Minnesota, Wisconsin. And--because 
rightfully we have eight States in our union that border the 
Great Lakes.
    And this rightfully should be addressed first and foremost 
by the EPA. And unfortunately it's been forced upon the Coast 
Guard by default. You know, the Coast Guard ought to--they're a 
uniform service, we ought to be allowing to free them up to 
protect our homeland as they're--which is their primary 
mission.
    So a roundabout answer is yes, we have the means right now. 
They're going to be challenged in Federal Court, I expect. The 
best long-term solution is the answer that your committee and 
the EPA can provide.
    Mrs. Miller. I appreciate that. You know, during the last 
Congress actually, and this would go to your consternation 
about whether or not the EPA should take the lead role or 
perhaps the process should remain with the U.S. Coast Guard, 
but during the last Congress, I had introduced legislation in 
which we would have required that ocean vessels coming into the 
Great Lakes system would have to have at least a 95 percent 
discharge of their ballast water before they left the 
Eisenhower Lock in the St. Lawrence Seaway there. And it would 
require that the Coast Guard would do the inspections. I've not 
re-introduced that legislation. My hope is at the end of this 
hearing, I'll have enough information to fine-tune that. But we 
held off on that at this time, because of waiting for the Coast 
Guard to issue their standards. And so, I'm still not certain 
whether it really rests with the EPA or the Coast Guard. There 
has to be some triggering mechanism, somebody to actually 
enforce this. And that would seem logical to me to have the 
Coast Guard to be the one to enforce whatever Federal 
legislation we might have. Certainly you don't have the ability 
to do that with every ship, nor do I think that you'd want to 
do that, but certainly on a random basis, I think, if we were 
to get to standards there.
    I might ask the Attorney General Cox again, what is your 
observation of the kind of response, how yourself and your 
other colleagues have gotten from the Federal agencies that are 
in the bull's-eye of your lawsuit?
    Mr. Cox. Well, we won out in the District Court out in 
California, Federal District Court out in California. The EPA 
is going to dig in their heels, and that isn't the end of the 
battle by any means. And we're going to have to pursue this.
    And quite frankly, I myself, philosophically as a lawyer, 
feel uncomfortable having to sue a Federal body to perform its 
federally mandated role. But in large part it's become a matter 
of self-defense for States along the Great Lakes. And we've 
unfortunately had to go the route of, you know, going to the 
courts. And the EPA is digging in, and they're not changing in 
the short run. Hopefully your hearings will provide a little 
persuasion.
    Mrs. Miller. Madam Moore, you are in the hot seat today, 
but if I could address that question to you? When do you think 
the Coast Guard would be effective to issuing a discharge 
standard? Perhaps you could enlighten us on that.
    Commander Moore. September 2003, we issued a notice 
announcing our intent to publish an Environmental Impact 
Statement. That was the second step that we had taken in the 
rulemaking development process for the discharge standard rule. 
We had done it with advance notice of proposed rulemaking just 
prior to that, to which we have received 40 comments to the 
docket.
    We are currently receiving chapters of that EIS and 
reviewing them. We're having the work done outside the Coast 
Guard at this point. We are very much expecting in the next 
several months, few months, to be able to issue the 
Environmental Impact Statement.
    That Environmental Impact Statement, as you know, is a 
NEPA, National Environmental Policy Act requirement to 
support--it's one of the supporting documents required for 
Federal rulemaking. A NEPA document can be a number of 
different levels, depending on the environmental impacts of the 
rule itself. And the environmental impacts of the ballast water 
discharge standard could be so significant, that the full, long 
analysis called the Environmental Impact Statement is the work 
required under this rule. We are completing that.
    We are also currently completing a cost-benefit analysis 
and regulatory analysis that are also required documents to 
support the rule. As well, we are working with our Federal 
agency partners, EPA, NOAA, Fish and Wildlife, in making sure 
that our science is defensible, it's valid, it's excellent, and 
it's correct before we issue this discharge standard.
    As well, we're working with the stakeholders in terms of 
trying to get a handle on what the cost of this rulemaking 
would be on the United States, and making sure that we have the 
adequate benefits achieved by setting a particular discharge 
standard at a level to offset the cost of the ruling. I guess 
the next--the most near term time line or milestone that we're 
going to see, is the publishing of the Draft Problematic 
Environmental Impact Statement. And that's yet some several 
months away.
    Mrs. Miller. The short answer would be, then, that perhaps 
in 18 months, 2 years? And once it is--you do have the 
standard, how long would it actually take to implement such a 
thing? Do you have any idea there.
    Commander Moore. Once this standard is established, it will 
come out essentially two times. It will come out as a proposed 
rule, notice of proposed rulemaking, and that standard then 
would be published out for the first time. The environmental 
process will give the results of the analysis of definite 
alternatives.
    Once the standard is announced and the rule itself, we'll 
also have an implementation schedule. In other words, what 
vessels it will apply to on what scheduling. That 
implementation schedule will tell vessels then when they can 
expect to have approvable equipment installed on board that 
would be able to discharge to meet that standard.
    It's important to know that the discharge standard serves 
two roles, and they're very different, and they're very 
important.
    The ballast water discharge standard's first role is to 
help the Coast Guard evaluate the performance of ballast water 
treatment technologies. Right now, under the NISA/NANPCA 
language, a system, in order to be approved by the Coast Guard, 
has to be as effective as ballast water exchange in reducing 
the risk of aquatic nuisance species introduction. And as we've 
already heard, ballast water exchange has a range of 
effectiveness.
    One of the reasons why the Coast Guard made a decision to 
move toward the ballast water discharge standard, was to lock 
in that performance standard for ballast water treatment 
systems to be able to meet.
    The other role that the ballast water discharge standard 
will have, though, and one great benefit that it has in terms 
of the regulatory issue, is it gives us an ability to determine 
that the discharge from the system on the vessel is compliant 
through the life of the vessel. So that we know once installed 
approved equipment is on board, it is also continuing to 
function as it's designed. And that dual role of the discharge 
standard is a very important element of having a discharge 
standard, and not having the systems that are approved separate 
from having a discharge standard.
    Mrs. Miller. Commander, you spoke, you mentioned several 
times that the concentration approach is the preferred 
approach. Could you explain a little bit what is meant by that 
term concentration approach.
    Commander Moore. Certainly. The way the concentration 
approach works essentially, is a family of organisms. Typically 
we're looking at families established certainly by a time--I'm 
sorry, by a size range. In the international, that size range 
is greater than 50 microns, organisms greater than 50 microns. 
That's technically zoaplank, and all the way up to fish. And 
then organisms smaller than 50 microns but greater than 10 
microns, that is the organisms that tend to fall in the 
bicrondic category. And then, finally, there's a third category 
that are the microbes or bacteria kinds of organisms, and those 
are also in a concentration-based standard.
    So that the way the standard would work, is that per volume 
of ballast water discharged, only a--no more than a maximum 
number of organisms--or, less than a max number of organisms 
would be permitted in that volume of discharge. And so that's a 
samplable quantity in a laboratory setup under an approving 
system, and then it is also a sample of water quality.
    Mrs. Miller. Thank you.
    Representative Lynch.
    Mr. Lynch. Thank you, Madam Chair.
    First of all, Commander, I want to say thank you for your 
service to our country. It is deeply appreciated. I have a 
great relationship with my Coast Guard commander in the port of 
Boston.
    I notice that yourself, and actually Ms. Nazzaro, point to 
this convention, this International Maritime Organization 
Convention. And I'm just concerned. I know the situation that 
we have right now in the Great Lakes and other coastal areas. I 
know the amount of encroachment we've had with invasive 
species. And I'm looking here at, for instance, the amount of 
time it's taken for us to develop the standard, and we're not 
there yet. It began in 2001, and we still have I don't know how 
long to go. But I'm just seeing a very quick encroachment and 
the possibility of irreversible damage to the Great Lakes, and 
yet this bureaucratic process just goes very, very slow or on 
different time lines. And it concerns me greatly.
    And then I see here that, first of all, the conference 
adopted the International Convention which it calls upon, it 
calls upon shippers, shipping companies, vessels to adopt 
certain standards. Is that--when you say calls upon, and I 
notice yourself and Ms. Nazzaro used the exact same sentence, 
is this mandatory?
    Commander Moore. Yes, sir, the convention is mandatory.
    Mr. Lynch. The convention is mandatory.
    Commander Moore. The convention is mandatory for parties. 
In other words, if a country ratifies, and then sufficient 
countries with sufficient shipping gross tonnage ratify the 
convention, then that treaty then enters into force, the 
parties are bound by the mandatory requirements of the 
convention, yes.
    Mr. Lynch. OK. Well, that's encouraging. And the other 
thing that troubled me was, it talked about calling on ships to 
meet a ballast water discharge standard according to a schedule 
of fixed dates, beginning with ships constructed in 2009.
    Commander Moore. Yes, sir.
    Mr. Lynch. Do you see the problem with that? If we don't 
apply the standard until--or, if we end up with a situation 
where ships are not under the burden of this regulation unless 
they're constructed in 2009, and if the average life of one of 
these vessels is 30 or 40 years, then even out in 2030, 2040, 
we have a very small percentage of the vessels that are going 
to be subject to this rule, and the rest are out from 
underneath the protection that you and I and the rest of us are 
trying to provide.
    Commander Moore. Yes, sir. The schedule of fixed dates 
begins with vessels newly constructed in 2009. But the existing 
vessels that you are concerned with, begin to come under the 
coverage of that standard beginning in 2012, and then on until 
all vessels are under the standard by 2016.
    And the reason for that, sir, is the quantity and number of 
vessels, just shear number of vessels that we have to install 
equipment, and the challenges faced by existing vessels 
retrofitting equipment into confined areas in their engine 
rooms, say, that and overcoming the challenges of retrofitting 
significant equipment on existing vessels. That's why the use 
of existing vessels have a longer time line with which to be 
able to design, purchase and install this equipment.
    Mr. Lynch. I understand.
    Commander Moore. Existing vessels are covered.
    Mr. Lynch. So, Commander, what you're saying, is that by 
putting this out there, the manufacturers, at least the ships 
and the ballast systems themselves, they'll be influenced by 
this regulation, and so they'll modify them in a way that they 
won't be the honeycomb design that they are now, which is very 
tough to flush and very tough to clean out, and that are prone 
to carrying sediment; they'll be influenced so that we'll be 
able to adapt the new technology to those vessels.
    Commander Moore. Sir, what we're seeing, are a number of 
adaptations on several different levels. First, I think in 
terms of ballast water treatment systems under development, 
ballast water treatment systems, many of them, if not most of 
them, have either a filtration or separation component to them 
so that the accumulation of sediment is going to be 
dramatically reduced as the installation of these systems 
proceeds.
    Many of the systems are actually an in-line system. In 
other words, they're going to be dealing with the organisms in 
the ballast water while they are being pumped aboard or 
overboard of the vessel. So the actual need to modify the tank 
structure, which would be very expensive in these vessels, is 
not going to be needed. The honeycomb structure of the ballast 
tanks, the advantage to that is that it allows for smoother 
cargo spaces and the efficient loading and offloading of cargo. 
So having the structure within the ballast tanks, is actually a 
good thing. It's tough for ballast water exchange 
effectiveness, but if we are able to treat the ballast water 
before it gets into the tank, then that honeycomb structure no 
longer becomes an impediment.
    Mr. Lynch. OK. Very good. And the question is generally for 
all four panelists. And I do appreciate, as the other Members 
do, your appearance here. Are there technologies that you see 
in grappling with this problem? Do you see some technologies 
that offer greater promise than others?
    Ms. Nazzaro. Yes.
    Commander Moore. Yes, sir. I'll just go first. We are 
seeing a tremendous growth in the development of novel 
technologies. I think we're seeing a great deal of input from 
water treatment industries that have typically performed 
outstanding work on land trying to adapt themselves to the 
maritime environment. Of course a ship environment is very 
difficult. But you're seeing filtration technologies, the 
adaption of ultraviolet light for the disinfection; you're 
seeing chemical oxidizing and non-oxidizing biocides being 
used. There's a number of non-chemical biocide type treatments, 
where either the oxygen is removed from the water, or some 
other water chemistry changes are being effected on the water 
so that it does not--no longer supports those organisms. As we 
heard Doctor Brandt testify, there are a number of organisms 
that are very tough to kill. And we are exploring what are 
those response relationships between some of these treatment 
systems and the organisms themselves. So there's still a great 
deal of developing work. And the industry is certainly in its 
development stage. There are a number of treatment systems that 
are showing promise, have been installed on ships, are being 
actively, very thoroughly tested right now.
    Mr. Lynch. OK. Thank you.
    And if I could, Mr. Brandt, I know that you mentioned in 
your testimony there are various studies out there in terms of 
even the efficacies of using this--what do they refer to it, 
swish and spit, where they bring in the salt water and get the 
loose--the residual water in the ballast tank.
    Are you suggesting there that there should be more studies 
done around that, that aspect of this?
    Mr. Brandt. Yeah. I think that what we've seen by 
interviewing the shippers, is that some of those ships that do 
use that swish and spit, which particularly if they bring water 
in shortly after they've had sediment brought on board, they 
were in a turbid area taking on ballast water. If they can 
rinse that out right away before that sediment becomes hard, 
those kind of ballast water management strategies can be very 
effective at reducing the amount of sediment.
    There's the similar sort of an argument could be made for 
taking on salt water and swishing it around, and having salt 
water overlying the sediment rather than the fresh wash. I 
think those are techniques that can be applied right away and 
could be effective.
    One of the things, though, that we've noticed, that some of 
these animals are very hardy. Their resting eggs can withstand 
no oxygen in water, they can go through a fish's digestive 
tract. They can live for decades. And once they get back into 
the water, they can resurface and grow. And those animals are 
hard to kill.
    Mr. Lynch. OK. Thank you.
    And last, Attorney General Cox, I notice in your testimony 
you were fairly critical, deservedly I believe, of Senate bill 
363, that would prohibit the State of Michigan which came up 
with a very innovative way to categorize this problem, this 
pollution----
    Mr. Cox. Right.
    Mr. Lynch [continuing]. And to get at it through the EPA. A 
very--I think it's instructive, and I'm going to bring it to 
the attention of my folks in Massachusetts.
    In terms--and it also, 363, at least the plain reading of 
it, would prevent the EPA from regulating ballast water 
discharges under the Clean Water Act.
    Mr. Cox. Right.
    Mr. Lynch. It's the same preemption argument. What about 
the idea that if the Coast Guard comes up with its standard and 
Michigan wanted to do more, wanted to do more than what the 
standard might require? As the chief law enforcement officer 
for the State of Michigan, what is it your opinion that--what 
would that do to your wishes to be more protective of the Great 
Lakes?
    Mr. Cox. Well, Congressman, I think part of my opposition 
to the Senate bill 330--or excuse me, 363 not allowing the 
States to have any role, is the part of that same bill that in 
essence says don't apply the Clean Water Act, and don't do a 
number of the things we need to rectify the situation right 
now. And my opposition, based upon not allowing the States some 
role, you know, might completely disappear if we could get the 
EPA to do what it should have been doing all along. I mean, 
it's a very practical political matter.
    This is a problem I think we, at the States, would rather 
not even have to worry about. It's only because it's dropped at 
our doorstep and we aren't getting the sort of Federal response 
that is needed, that we argue for a role for States.
    You know, I understand there's--you know, it's a very 
complicated problem. But as I look at the time line here, you 
know, in 1990 with the Nonindigenous Aquatic Nuisance 
Prevention Control Act, 1999 President Clinton's EO, 2001 the 
task force finally starts up. And maybe in 2012 there might be 
some relief on existing ships with regard to NOBOB. So that's 
22 years that the Great Lakes are taking it on the chin maybe 
waiting for some Federal action. And again, that's why us 
States have to--why we're forcing ourselves up to the table.
    Mr. Lynch. OK. Thank you. I yield back.
    Mrs. Miller. Thank you.
    Representative Westmoreland.
    Mr. Westmoreland. Thank you.
    And, Commander, let me compliment you and the Coast Guard 
for the job that you're doing on the gulf coast too, but I 
would like to ask you a couple of questions.
    I notice that there are three different ways, I guess, 
that--or procedures on exchanging this ballast water. One says 
prior to discharging ballast water in U.S. waters, perform a 
complete ballast water exchange, and in an area no less than 
200 nautical miles from any shore, retain ballast water on 
board the vessel. Or prior to the vessel entering U.S. waters, 
using an alternative environmentally sound method of ballast 
water management that has been approved by the Coast Guard.
    If these ships don't do that, it says there's a fine levied 
for $27,500 per day that this ship has not performed one of 
these. And I think the figure's been given that there was about 
a 90 percent compliance rate.
    How do you know that?
    Commander Moore. Sir, we get on board every ship carrying 
ballast water and entering into the Great Lakes. And we 
evaluate a random sample of the tanks on board to insure that 
the salinity in those tanks reflects the salinity 
representative of mid-ocean water versus the salinity 
representative of coastal brackish or fresh water.
    Mr. Westmoreland. So you actually board the ships.
    Commander Moore. Yes, sir.
    Mr. Westmoreland. Have you had to issue any fines?
    Commander Moore. No, sir. There's a practical collision 
with actually ending up issuing a fine for a vessel that has 
not completed an exchange. We have a reporting requirement that 
before they enter the system, we have a report from them on 
what the vessel actually did. If they for some reason have a 
tank that they have not completed an exchange on, what they 
will do is then they will say that they have no intention to 
discharge the contents of that tank. One of the advantages that 
we have, is the ability then to give them an order that says 
that they cannot discharge the contents of that tank and then 
determine on their exit by both the quantity of ballast water 
in that tank and again measuring the salinity in that tank, to 
determine that it's not say completely fresh Great Lakes 
ballast water; that they have in fact not discharged the 
ballast water into the Great Lakes. So by virtue of the system 
that's set up in terms of reporting, sampling and enforcement, 
we haven't had an opportunity, if you will, to actually exert a 
fine in the Great Lakes system.
    There are new regs in place obviously nationwide. There 
have been some fines and tickets associated with compliance 
around the country. But the Great Lakes is a unique kind of a 
system with an entry into the system. And we've been--had no 
fines within the Great Lakes.
    Mr. Westmoreland. So what you're basically telling us, is 
that you feel like the Coast Guard regulations right now are 90 
percent successful, and that all of the problems that are 
happening in the Great Lakes is coming from that 10 percent 
that are not compliant.
    Commander Moore. It's interesting to think about the influx 
of ballast water into the Great Lakes, but that is really only 
part of the contribution of nonindigenous species into the 
Great Lakes. In terms of shipping, vessels also have some 
fouling associated with shipping, and so there might be other 
places on the ship that organisms completely unrelated to 
ballast water may be carried into the system. And there are 
also other sources of nonindigenous species into the Great 
Lakes completely separate from Great Lakes shipping. So I don't 
think that you can actually ascribe the increased rate of 
invasions completely to ballast water. While there is, as we've 
already discussed, the risk because some of these unmanaged 
residuals turn out to be--some fraction of them turn out to be 
fresh or brackish water and may have organisms that are 
compatible with the Great Lakes, that's probably not the sole 
source of nonindigenous species into the Great Lakes.
    Mr. Westmoreland. So what would you say was the percentage 
of these invasive non-natural species coming in that comes from 
ballast water.
    Commander Moore. I have no way to make that assessment. The 
only thing I can do, is reduce the risk or eliminate the risk 
that ballast water is contributing noninvasive--or, 
nonindigenous species into the Great Lakes.
    Mr. Westmoreland. Attorney General Cox, you seem to be a 
sportsman that enjoyed the outdoors. Are there any natural 
predators for the--what is it, the round oby or----
    Mr. Cox. The goby? No.
    Mr. Westmoreland. The goby.
    Mr. Cox. No. The zebra mussel. Some folks think that 
there's some natural predatation evolving, but Doctor Brandt 
might have a better idea than I do of that.
    But I think that brings up a point that is very germane to 
this issue about aquatic nuisance species. By and large, we 
don't have scientists arguing about whether this is a good idea 
or a bad idea. This isn't like global warming where people talk 
about, you know, increased regulations of CO2, you know, 
whether global warming's related to that, or whether CO2's that 
bad or not. By and large that I know of, there's no scientists 
who say these species are good for us or good for the Great 
Lakes.
    So I think it's against that context, or I would hope it's 
against that context, that everyone approaches what the EPA and 
the Coast Guard, or whatever part of the Federal Government 
engages this problem, you know, how they approach their 
timelines.
    It's just, you know, this is--this is a problem that keeps 
dumping itself into the Great Lakes. You know, 10 percent of 
the vessels not being compliant. Congressman Miller knows 
better than I, but if you drive 15 miles from here to Port 
Huron, and you can watch within an hour, on any given hour you 
can watch tens if not hundreds of vessels go by, and you start 
to realize 10 percent matters; 8 percent matters.
    So again, I'm getting back to your original question, I 
don't believe there's any natural predators. There's some 
thought that there might be, but again that's probably Doctor 
Brandt would know better than I.
    Mr. Brandt. I'd like to try and address that a little bit. 
The goby actually and the zebra mussels came from the same 
region. In fact, when the zebra mussel came here first, 
followed by the goby, the goby came into a habitat where it had 
its natural food, which in some sense is a zebra mussel. So 
what the goby has done, is they also feed on other fish that 
compete with a number of the fish and natural species. Yellow 
perch is one of those examples.
    One thing to be remembered, though, is that eradication of 
these species, except immediately after their appearance--but 
once they've entered the Great Lakes and have become 
established, eradication is almost impossible. We've had great 
success in trying--at great cost, in trying to control the sea 
lamprey. But we've not eradicated any other species in the 
Great Lakes that has become fully established.
    And I think what those folks that manage fisheries and that 
are--the problem they face, is that the entire ecosystem is 
changing. Every time a new species comes in and takes over, the 
system has changed. And they need to look at their regulations, 
the way they manage the system in that way. And that's a very 
difficult thing to do.
    Mr. Westmoreland. Now, Doctor Brandt, one final question, 
Madam Chairman. You mentioned the sea lamprey. I know that they 
are treating that with a chemical or a spray I guess. Has there 
been any research into any of these other species, such as the 
zebra mussel or the goby.
    Mr. Brandt. There's a lot of research to try and control 
them in areas where they're causing a lot of problems, like 
intake of water--municipal water sources or power plants, and 
there's ways to control those. There's means that can be used 
to reduce their attachment to these solid structures.
    There's a very interesting research in Australia that is 
looking at genetic techniques that are trying to control the 
species once they've become established. None that's going on 
in the United States at present.
    Mr. Westmoreland. Well, thank you for each one of you 
commenting, coming in and testifying today.
    Ms. Chairman, that's all the questions that I have.
    Mrs. Miller. Thank you. And I want to thank all the 
panelists for appearing today. And if any of the Members have 
any further questions of them, you can certainly submit them, 
and then we'll have them respond and made a part of the 
congressional record here for the subcommittee.
    Again, as well, we want to thank you all for coming, and 
we'll take a brief recess while we impanel our next group of 
witnesses.
    Thank you so much.
    [Recess.]
    Mrs. Miller. All right. We're going to restart our hearing 
here.
    And once again, because the Government Reform Committee is 
an oversight committee and has subpoena authority, we ask that 
you please stand and raise your right hands.
    [Witnesses sworn.]
    Mrs. Miller. Thank you very much.
    Our first witness today is Mr. Dennis Schornack. Mr. 
Schornack was appointed to chair the U.S. Section of the 
International Joint Commission by President George W. Bush, and 
he assumed the office on April 8, 2002. And during his tenure 
at the IJC, he has focused on the problem of aquatic invasive 
species, and he's testified on the subject both before the U.S. 
Congress and the Canadian Parliament.
    Mr. Schornack's leadership of the IJC caps a 25 year career 
at the top levels of the State government, including 11 years 
in senior positions for Michigan Governor John Engler.
    Most notably, he co-led the development of Annex 2001, 
which is an agreement among the eight Great Lakes States and 
two Canadian provinces to manage Great Lakes water uses and 
diversions.
    He earned his B.A., B.S. and Master's degrees from Michigan 
State University, as well as a Masters in public health from 
the University of Michigan.
    We appreciate you coming today, Mr. Schornack, and look 
forward to your testimony, sir.

   STATEMENT OF DENNIS L. SCHORNACK, CHAIRMAN, U.S. SECTION 
                 INTERNATIONAL JOINT COMMISSION

    Mr. Schornack. Thank you, Chairman Miller, and members of 
the subcommittee. I appreciate the opportunity to appear before 
the subcommittee today.
    And I particularly want to commend Chair Miller for 
convening this session at a high school, because you're exactly 
right, the key to being a good steward of the Great Lakes, is a 
great education. And what students learn today, will be 
reflected in healthier, better managed, more sustainable lakes 
tomorrow.
    I also commend you for your leadership on many critical 
issues confronting the Great Lakes, from invasive species, to 
toxic spills, to the erosion in the St. Clair River. You've 
been a staunch defender of the Great Lakes, and your work is 
greatly appreciated.
    Like you, though, I'm increasingly frustrated at the slow 
pace of progress to reduce the risk of invasion, and thereby 
protect the Great Lakes from alien species. In my view, aquatic 
invasive species are the No. 1 threat to the biosecurity of the 
Great Lakes, and it's time for everyone who cares about the 
Great Lakes to stand up, and speak out, and with one voice tell 
Washington and the Congress to do something and to do it now.
    What is it that we should ask Congress to do? To me, it's 
obvious that congressional action and oversight are required to 
speed up the process, to cut through the confusion of competing 
approaches, and to set a clear, protective discharge standard, 
and to set clear lines of authority and responsibility.
    If we've learned one thing in the wake of Hurricane 
Katrina, it's that solving problems becomes exponentially 
harder when multiple agencies are in charge or think they are 
in charge. The result: everybody and nobody is in charge. 
Conversely, seemingly intractable problems can be successfully 
tackled when authority, resources and responsibility are 
focused in one agency. And in the case of aquatic invasive 
species, I believe that agency is and should remain the U.S. 
Coast Guard.
    Our goal of keeping the Great Lakes closed to invasion but 
open to commerce, is being pursued along several regulatory 
pathways at the international, national, and subnational 
levels. These treaty-based administrative and legislative 
pathways have been described in part in previous testimony.
    And with each of these regulatory pathways, the key step is 
setting a ballast water discharge standard. Setting a 
successful standard requires the following basic elements, in 
my opinion: First and foremost, the standard must be 
biologically protective of the Great Lakes. In short, it has to 
work.
    Second, it must be enforceable, meaning that the test to 
meet the standard must be quick, it must be simple, and it must 
be without ambiguity.
    Third, it must be fairly applied to all ships capable of 
carrying ballast water.
    Fourth, it must be achievable either by technology, the use 
of an environmentally benign biocide, or some management 
practice, or a combination of these factors.
    And last, but of no less importance, the standard must be 
coordinated with Canada to allow for maximum protection of the 
lakes and the maximum opportunities for cooperative testing and 
efficiencies in enforcement. Ideally, the standard should be 
the same, because invasive species recognize no boundaries.
    These actions would position the United States as a world 
leader in the protection of a world-class resource. However, 
the Great Lakes are a shared resource. So to be effective and 
fully protective of the lakes, these actions must be 
coordinated with Canada.
    Frankly, I think this gives our two countries the perfect 
opportunity to examine their policies as part of the review of 
the Great Lakes Water Quality Agreement that was just about to 
commence this January. A review process would allow the two 
parties to step back from the day-to-day needs of management 
programs, to develop a harmonized, coordinated approach, based 
on a single standard. To me, if a new Great Lakes Water Quality 
Agreement achieves a common strategy between our two countries 
on an aquatic invasive species, it will be a resounding 
success.
    Finally, the subcommittee should be also aware of other 
ways to stop the discharge of untreated ballast water in the 
Great Lakes. An example is the transshipment of goods from 
ocean vessels to lakers prior to their entry into the Great 
Lakes. Goods that could not be transshipped to vessels might be 
moved to trucks and railroad lines. In this regard, a recent 
study by Doctor John Taylor of Grand Valley State University--I 
believe he's in the audience today--revealed that the estimated 
additional cost of this option would be roughly $55 million per 
year, an amount that was far less than the annual cost to water 
and power industries attributed to invasive species.
    Now, I mention this alternative, because this study sets a 
benchmark for the cost of any regulation this Congress or the 
Coast Guard might adopt. If regulatory compliance costs are 
greater than $55 million per year, then transportation modes 
for these cargos may shift.
    Congress and regulators must be aware of such impacts, so 
that they can be fully informed and prepared to make the 
decisions needed to protect both the economy and the ecology of 
the Great Lakes.
    Thank you again for the opportunity to express our views, 
and I certainly look forward to answering your questions.
    Mrs. Miller. Thank you very much, Mr. Schornack.
    [The prepared statement of Mr. Schornack follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.062
    
    [GRAPHIC] [TIFF OMITTED] T4893.063
    
    [GRAPHIC] [TIFF OMITTED] T4893.064
    
    [GRAPHIC] [TIFF OMITTED] T4893.065
    
    Mrs. Miller. Our next witness is Kathy Metcalf. She serves 
as the director of Maritime Affairs for the Chamber of Shipping 
of America, which is a national trade organization that 
represents U.S. interests in the maritime industry. Its members 
are composed of operators, owners and charters of tankers, 
chemical carriers, containerships and bulk carriers that are 
either U.S. flagged or have interests in the continued 
viability of the U.S. maritime industry.
    She has sat in this position since 1997, and in her 
capacity represents maritime interests before Congress and 
Federal and State agencies and in the international arena as 
well.
    Prior to coming to the Chamber of Shipping, she served in 
various positions in the energy industry, including deck 
officer aboard large ocean-going tankers, marine safety and 
environmental director, corporate regulatory and compliance 
manager, and State government affairs manager.
    We appreciate you coming in today, Mrs. Metcalf, and we 
look forward to your testimony.

STATEMENT OF KATHY METCALF, DIRECTOR, MARITIME AFFAIRS, CHAMBER 
                     OF SHIPPING OF AMERICA

    Ms. Metcalf. Thank you, Madam Chairman. It is a pleasure to 
be back in high school. And at our age, it is always a good 
feel.
    While I'm presenting my testimony today on behalf of my 
organization, I think I want to make the point that we are but 
one of a number of organizations that are members of an 
informal shipping industry ballast water coalition. And my 
colleague to my left, Mr. Weakley, as well as other 
organizations, have put that organization together, informal as 
it may be, well over 3 years ago, when we sensed the need for 
the industry, the entire industry, not just this trade 
association or another, to really get off the line, off the 
mark if you will, and move forward on this issue.
    Now, while I have not cleared this testimony through them, 
I will ask the recognition of the Chair, that attached to my 
written testimony is coalition testimony I presented on June 
15th to the Senate Commerce Committee, which serves as really 
the foundation of my testimony today.
    It is absolutely reasonable that this hearing be held here, 
because unfortunately, this area was the first documented--one 
of the first documented victims of invasive species in the 
United States. And because of that, I think there's an 
appreciation in this region, there's an absolutely critical 
need for a strong national program--actually, a strong 
international program. But given the variations and the speed 
of various international initiatives, it certainly is 
understandable in the part of the United States and some of the 
regions within the United States, that a national program at 
the very least be established.
    It's important that it be at least a national program, 
because it needs to regulate an international business. The 
colleague to my right has mentioned Canada and the United 
States. But the bottom line is that some of these critters, if 
you will, have the ability to float in currents and whatnot 
over long, extended periods. And it's important that we have an 
international system because the critter in New Mexico that's 
not controlled may become our next invasive species as well.
    For 20 years, the industry's been working on this 
internationally, and at national levels as well as State 
agencies. And the basic industry position has four elements. 
One is, as I indicated, a mandatory national program.
    A strong Federal program has been espoused by three State 
environmental agencies of which I have worked with this 
problem. They didn't want these strong Federal programs (sic), 
so the States individually do not have to create the same thing 
perhaps with different results.
    The second is a need, absolutely critical need for a 
quantitative ballast water standard that's based on 
concentration.
    The third is we need to get stuff on the ships. What works 
great in the laboratory but doesn't work on a ship, is of no 
benefit to us in the long-term.
    And finally, understanding the delicacy of this terminology 
even in Washington, but particularly at a field hearing, there 
is a need for Federal preemption in this issue for a lot of 
reasons; not the least of which is to promote the consistency 
in a national program and, therefore, promote the compliance of 
vessels as they call on U.S. ports.
    I'm happy to say today that the IMO convention achieved all 
of those but the preemption. Thank goodness they didn't deal 
with national preemption on a national treaty.
    But I'm even happier to say today that Senate 363 does deal 
with it. It does not shut States out from participating in the 
process of creating a standard. It simply says that once the 
Federal Government has agreed on a standard with input from all 
State levels, that it will become the national program.
    Why should we preempt State initiatives? Well, the past 
argument, put quite simply, is the reason. Ships travel across 
boundaries. So do invasive species. Let's control them the 
right way, and in a way that's predictable to not only 
business, but also to the environment, so we can do good right 
now, as soon as possible.
    Treatment technologies, as indicated by previous witnesses, 
there's a lot of them. The one thing we can all agree on, is 
there is no silver bullet that would provide the necessary 
efficacy on all ships on all voyages in all water bodies. So 
there's a need for the development. And it is happening.
    Once the IMO convention placed--put in place a quantitative 
standard, it happened that the vendors and ship owners began to 
work together. And I'm quite proud that three of our member 
companies actually are testing three separate technologies on 
three different types of ships in three different geographies, 
one of which is the Great Lakes.
    Finally, I would just say on the need for a quantitative 
standard in any program, if we can visualize someone in a dark 
room shooting at a target that's not there with their eyes 
closed, that's what the agencies, both State and Federal, the 
shipping industry, the environmental groups have had to deal 
with prior to the creation of a numerical standard. We now have 
a target. The lights are beginning to come up in the room, and 
we're beginning to focus in on achieving that.
    And finally, as far as the necessity for the Federal 
statute to be the controlling statute for ballast water, the 
Attorney General from Michigan indicated the suit. Well, we are 
also interveners in that lawsuit on the other side. And we 
believe it's important to create a system of management for 
ballast water. We do not believe the NPDS program was created 
nor intended to apply to sources that move across 
jurisdictional boundaries.
    The best example I can think of right now, would be if we 
suddenly decided that rather than create Federal automotive 
emission standards, that every State would permit every vessel 
that went through it, as opposed to a Federal standard by which 
we can all rely.
    So again I thank you. We are committed to working with the 
Federal agencies and the Congress, and hopefully moving Senate 
363 to a successful conclusion, and I'd be happy to answer any 
questions you may have.
    Mrs. Miller. Thank you very much.
    [The prepared statement of Ms. Metcalf follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.066
    
    [GRAPHIC] [TIFF OMITTED] T4893.067
    
    [GRAPHIC] [TIFF OMITTED] T4893.068
    
    [GRAPHIC] [TIFF OMITTED] T4893.069
    
    [GRAPHIC] [TIFF OMITTED] T4893.070
    
    [GRAPHIC] [TIFF OMITTED] T4893.071
    
    [GRAPHIC] [TIFF OMITTED] T4893.072
    
    [GRAPHIC] [TIFF OMITTED] T4893.073
    
    [GRAPHIC] [TIFF OMITTED] T4893.074
    
    [GRAPHIC] [TIFF OMITTED] T4893.075
    
    Mrs. Miller. Our next witness is James Weakley. Mr. Weakley 
became the president of the Lakes Carriers' Association on 
January 16, 2003. And in his capacity, he acts as the chief 
spokesman for the U.S.-Flag Great Lakes carriers, representing 
the industry on a variety of issues. He graduated from the U.S. 
Coast Guard Academy in 1984. And as an Engineering Officer, he 
traveled aboard the Coast Guard Cutter MIDGETT.
    In 1993, he entered the private sector, joining the 
Interlake Steamship Co., where he served as personnel director 
and later as operations manager. He was recalled to active duty 
following the events of September 11th, and was thereafter 
awarded the Department of Transportation 9-11 Medal. He also 
has received several other medals, and serves on the boards of 
numerous marine associations.
    Mr. Weakley, we appreciate your service to our Nation, and 
we appreciate your attendance here today, and look forward to 
your testimony, sir.

  STATEMENT OF JAMES H.I. WEAKLEY, PRESIDENT, LAKE CARRIERS' 
                          ASSOCIATION

    Mr. Weakley. Thank you, Ma'am. Thank you, Madam Chairman.
    Lake Carriers' Association deeply appreciates the 
opportunity to address what is undoubtedly the most important 
environmental issue currently facing the Great Lakes, invasive 
species. The industry and the Federal Government must work 
together tirelessly to find solution to this vexing problem, 
otherwise more nonindigenous species will be introduced into 
the Great Lakes via ballast water from ocean-going vessels.
    Everyone involved in the Great Lakes shipping has an 
obligation to keep the Great Lakes open to commerce but closed 
to exotics. Lake Carriers' Association has been a leader in the 
efforts to end this invasion, and pledges to cooperate in the 
future in any way possible.
    Our members annually move as much as 125 million tons just 
here on the Great Lakes. Iron for the steel production, coal 
for power generation, and limestone for construction are our 
primary commodities. The problem with aquatic invasive species 
must be solved so that waterborne commerce on the Great Lakes 
can remain the safest and most efficient way to move raw 
materials that drive the regions and our Nation's economies.
    However, as a starting point, we must recognize that U.S. 
flag dry-bulk cargo vessels, commonly referred to as Lakers, 
operate exclusively within the Great Lakes and enclosed aquatic 
ecosystems. Therefore, Lakers have never introduced an invasive 
species to the Great Lakes. These invaders have been introduced 
via ballast water from the ocean-going vessels or Salties. 
Nonetheless, Lake Carriers' Association is committed to finding 
ways to stop future introductions.
    In 1993, the Association became the first maritime 
organization in North America to institute voluntarily 
practices to slow the spread of invasives that have been 
introduced to the Great Lakes by ocean-going vessels.
    LCA pioneered research on filtration and treatment of 
ballast water for possible application on Salties, and over 
time has developed additional ballast water management 
practices for its members to implement to lessen the spread of 
the established exotic species.
    We must further note that there are significant design and 
operational differences between the Salties and the Lakers. 
Therefore, a system or a practice that is viable on an ocean-
going vessel, may not be effective on a Great Lakes dry-bulk 
cargo vessel. A Saltie requires as much as 3 million gallons of 
ballast water when emptied of cargo, and loads or discharges at 
a relatively slow water. A Saltie can in fact be in port for 
days. The largest U.S.-Flag Lakers load or discharge cargo in a 
matter of hours, taking on as much as 15 million gallons of 
ballast. Simply put, a system that can treat 3 million gallons 
of ballast over 1 or more days on a Saltie, would be 
overwhelmed by the Laker's flow rate of 80,000 gallons per 
minute.
    Therefore, I must reiterate that the only way to stop 
introductions of invasive species, is to develop a system or 
operating procedures that will remove or block nonindigenous 
species from the ballast water of ocean-going vessels. Since 
LCA's members do not operate ocean-going vessels, we defer to 
other operators to make specific recommendations for the new 
requirements for Salties.
    However, the reality is that those nonindigenous species 
that have established themselves in the Great Lakes, are going 
to migrate throughout the system over time. There are no 
natural barriers separating the Great Lakes. Therefore, 
whatever measures are eventually required of Salties, would 
have little or no value on Lakers. Again, Lakers confine their 
operations exclusively to the enclosed aquatic ecosystem. Their 
ballast water contains only what is already in the Great Lakes.
    LCA members have voluntarily implemented ballast water 
management practices to slow the spread, but no shipboard 
system or practice can eliminate exotics that have taken root 
in the Great Lakes. As a draft of port, the Great Lakes 
Regional Collaboration declares, ``Once these invasions have 
been launched, they are irreversible.''
    The war against future introductions of nonindigenous 
species will be won or lost in the ballast tanks of ocean-going 
vessels.
    Thank you, Madam, and members of the committee for this 
opportunity to appear before you. I'll be pleased to answer any 
questions you might have.
    Mrs. Miller. Thank you very much.
    [The prepared statement of Mr. Weakly follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.076
    
    [GRAPHIC] [TIFF OMITTED] T4893.077
    
    [GRAPHIC] [TIFF OMITTED] T4893.078
    
    [GRAPHIC] [TIFF OMITTED] T4893.079
    
    Mrs. Miller. Our next witness is Jason Dinsmore. Mr. 
Dinsmore serves as the resource policy assistant for the 
Michigan United Conservation Clubs [MUCC]; which has 
represented the views of millions of conservationists since 
1937, with over 500 affiliated clubs whose mission is to 
conserve, protect, and enhance Michigan's natural resources and 
our outdoor heritage.
    He serves as the expert in wildlife issues at MUCC, has a 
B.S. from Michigan State University in fisheries and wildlife. 
He's also pursuing his Masters in fisheries and wildlife, and 
has worked managing wildlife for the Department of Natural 
Resources and the Living Science Foundation.
    He's an active member of the Great Lakes Fishery Trust's 
Scientific Advisory Team, as well as serving on several other 
State advisory boards.
    We thank you for your presence here today, Mr. Dinsmore, 
and look forward to your testimony, sir.

STATEMENT OF JASON DINSMORE, POLICY SPECIALIST, MICHIGAN UNITED 
                       CONSERVATION CLUBS

    Mr. Dinsmore. Thank you, Madam Chairman, and members of the 
committee.
    Just as a quick illustration of how important this topic is 
to us, just yesterday I was reclining on a beach in Sutton's 
Bay in northern Michigan, and I got called back a little early 
from the vacation because no one else could cover the meeting 
here today. And it is very important to us, and very important 
to me as well. And my wife--it took a little convincing, but I 
made it here OK.
    I guess I'll move forward just in the name of time here. 
Michigan United Conservation Clubs is a statewide conservation 
organization that has represented the views of millions of 
conservationists since 1937. As you mentioned, MUCC has over 
500 affiliate clubs, with over 200,000 members, and 6,000 
individual members, all united to insure conservation of 
Michigan's natural resources.
    The members of MUCC, are people who understand the balance 
between economy and ecology. It's this understanding that makes 
us conservationists. A conservationist believes in the wise use 
of resources. We see the benefits of taking from nature for 
man's benefit and enjoyment, but we also respect and care for 
our resources, understanding that we if we take all of it or 
use it wastefully today, there will be nothing left for 
tomorrow or our next generations.
    Michigan's hunters and anglers have been paying to protect, 
conserve, and keep Michigan's natural resources healthy and 
productive since the first hunting and fishing licenses were 
issued two decades ago.
    There are a lot of issues that greatly concern Michigan's 
hunters and anglers. And at the top of this list is aquatic 
invasive species, or aquatic nuisance species depending on who 
you ask. Nothing's as frustrating as being told there's nothing 
that can be done about a problem that's invaded your home and 
begun to destroy the very resources you have been working your 
whole life to protect.
    Surrounded by the Great Lakes, Michigan has ample 
opportunity to see the changes brought about by aquatic 
invasive species. A large chunk of Michigan's economy depends 
on healthy fishery. There are over 1 million anglers residing 
in Michigan, and over 353,000 people visit Michigan just to 
fish. These anglers contribute over $830 million to Michigan's 
economy when you add up the license fees, hotel rooms, fishing 
equipment, boat rentals and, purchases, food and drinks, gas 
and so on. Think of all the jobs these services provide. And 
the very base of many of these expenditures is a healthy Great 
Lakes fishery.
    MUCC is grateful for the opportunity to be here today, and 
we are even more grateful that Congressman Miller has called us 
here. We have been waiting for someone to take a corrective 
approach at the Federal level, and I'm glad to see Michigan's 
own Congressman taking on that role. This hearing is an example 
of the forward thinking and motivated behavior that is 
necessary if we are going to protect the Great Lakes from 
further invasion.
    In addition to that, we would ask Congressman Miller to 
consider the following suggestions: We need strong leadership 
in Congress to seek out and collaborate with Canadian leaders 
and international people, as was mentioned before, on this 
issue, especially in dealing with ballast water controls. 
Ultimately fixing the problem in the United States means 
nothing if the invasives can still enter through Canada or 
other national means.
    We would urge Congressman Miller to fill this critical and 
often overlooked role, by supporting a reference from the U.S. 
Government to the International Joint Commission, asking them 
to address the needs for coordination and harmonization for 
invasive species prevention and control.
    Also, insure that the Coast Guard's voluntarily best 
management practices [BMP's], program for NOBOBs becomes 
mandatory and fully enforced as soon as possible.
    We would also ask that you please take the lead in 
advancing recommendations to the Great Lakes Regional 
Collaborative, including their recommendation that the 
government may not be able to implement mandatory ballast 
standards/technology by 2011. We need to have a backup plan in 
case this occurs. We would ask Congressman Miller to take on 
this role by calling for the study and development for a 
transshipment study of the Great Lakes, which would help keep 
out ocean-going ships and the invasives that carry ballast 
water--they carry if ballast water technology fails to be 
feasible in a timely solution.
    Development of transshipment study would be the first time 
this type of innovative thinking would enter the political fray 
and maybe a solution not only to preventing introduction of 
invasive species but to a beleaguered economy. Can we translate 
the transfer of goods from ocean-going vessels into trains and 
lake carriers into jobs and economic growth within the region? 
We believe so.
    Finally, Congress and the administration failed to move in 
a timely manner. We would ask that you help the other Great 
Lakes States move forward with legislation as similar or 
stronger to that which Michigan has done, to stop the spread of 
invasive species via ballast water. We would also ask that you 
fight to protect the ability of the Great Lakes States to enact 
its own regulations, stronger than those of the Federal 
Government, which may be lacking.
    The problems and challenges caused by invasive species have 
increased over the years as the Great Lakes region takes its 
place in this world's ever expanding global economy. We are 
likely to see more imports and exports from around the globe in 
the future, not less. And the transport of these goods leads to 
the greater threat of invasive species being imported along 
with lumber, textiles, and other goods.
    Michigan's conservationists want to see a booming economy. 
We want to see the Great Lakes prospering and thrive. They are 
the backbone that support our way of life and our livelihoods. 
But in order for the Great Lakes to thrive, we need to prevent 
the spread of new invasive species.
    I see my time is up, so I'll end it there. Once again, any 
questions.
    Mrs. Miller. Thank you very much. I appreciate that.
    [The prepared statement of Mr. Dinsmore follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.080
    
    [GRAPHIC] [TIFF OMITTED] T4893.081
    
    [GRAPHIC] [TIFF OMITTED] T4893.082
    
    [GRAPHIC] [TIFF OMITTED] T4893.083
    
    Mrs. Miller. And our final distinguished panelist is Kurt 
Brauer. He is with the Michigan Council of Trout Unlimited. Mr. 
Brauer currently serves as the Chair of the Natural Resources 
Management and Conservation Advocacy Committee within that 
organization. He is the past president of the Paul H. Young 
Chapter of Trout Unlimited in Troy, MI.
    And the Michigan Council of Trout Unlimited has 24 local 
chapters, and over 7,500 individual members. And there are over 
140,000 members of Trout Unlimited across our great Nation.
    Mr. Brauer, we look forward to your testimony.

 STATEMENT OF KURT BRAUER, CHAIR, NATURAL RESOURCES COMMITTEE, 
              MICHIGAN COUNCIL OF TROUT UNLIMITED

    Mr. Brauer. Madam Chair, members of the subcommittee, I 
appreciate the opportunity to speak to you today on behalf of 
myself and our 140,000 members of Trout Unlimited nationwide.
    I'd also point out that since Trout Unlimited was 
established in the great State of Michigan in 1959, it has 
worked diligently to conserve, protect, and restore native and 
naturalized populations of trout and salmon and the waterbeds 
upon which these economically important and beautiful sport 
fish depend.
    I always approach the topic of invasive species with some 
trepidation. This is because two of the four trout species that 
many of our members pursue and attempt to conserve, are 
actually introduced species themselves. Those would be the 
brown trout and the rainbow trout, which were introduced in 
Michigan at the end of the 19th century from Europe and the 
Pacific Northwest respectively, in an effort by early 
conservation officials to establish sport fisheries in heavily 
degraded environments.
    There are other known exotics have acclimated themselves to 
and impacted our region. Infamous new residents such as the sea 
lamprey, the zebra mussel, and the Asian Big Head Carp are far 
but a few. Sometimes referred to as nuisance aquatic species, 
our organization prefers a more descriptive term, biological 
pollutants, as I think Attorney General Cox referred to them.
    The aquatic ecosystems of our region are heavily impacted 
systems, which can and should be actively managed to achieve a 
variety of recreational, economic, and societal goals. And this 
is where the challenge with biological pollutants comes in. 
Once in the system, they are virtually impossible to eradicate. 
Unlike with toxins and non-living pollutants, once you control 
the source of those, you achieve a cleanup, and they don't 
reproduce themselves. With these living biological pollutants, 
even if you clean up 95 percent of them, they grow back, and 
you accomplish nothing in the meantime.
    This means that the only appropriate and effective 
management strategy for biological pollutants, is to control 
their vectors of introduction and transport. The Michigan 
Council of Trout Unlimited has two policy positions related to 
this issue. The first: the Michigan Council of Trout Unlimited 
supports the passage of legislation to prevent the importation 
of exotic species in ship ballast water as well as by other 
means.
    The second falls under the heading of cold water habitat 
restoration and may be a little bit less obvious. Our second 
policy consideration is that the Michigan Council of Trout 
Unlimited supports the modification and removal of damns as 
part of a comprehensive river restoration effort.
    The Michigan Council does not support the removal of the 
first barriers to fish passage upstream from the Great Lakes. 
And in part, that is to keep out some of the invasive species, 
such as the sea lamprey.
    But these policy positions are pragmatic, particularly in 
regards to damns. Damns do very bad things to rivers, to the 
hydrology, to the thermal regimes, and they--but they also 
effectively protect our streams from many of the undesirable 
biological pollutants that currently reside in the Great Lakes.
    On the national level, Trout Unlimited is actively involved 
in issues related to the management of undesirable exotic 
aquatic species. As a side note, it might surprise you to learn 
that the lake trout, which is an important native species of 
the Great Lakes region and which was almost eradicated by an 
invasive species, the sea lamprey, is actually an introduced 
exotic species in Yellowstone Lake, and threatens the survival 
of the native Yellowstone Cutthroat Trout. This puts Trout 
Unlimited in the unique position of advocating for the 
restoration in one location, and the eradication in another 
location of the same species of fish. So it's a national view 
on the basic species within our country, as opposed to invasive 
species coming from other countries, the Caspian Sea.
    Trout Unlimited's national policy related to exotic aquatic 
species is as follows: the objective is to prevent and minimize 
the harmful impacts of nuisance invasive species on salmonids. 
Programs and projects include eradication of selected non-
native western trout to restore native trout, and reducing the 
impact of whirling disease on native and wild trout.
    That sums up my comments, and I'd be happy to answer any 
questions.
    [The prepared statement of Mr. Brauer follows:]

    [GRAPHIC] [TIFF OMITTED] T4893.084
    
    [GRAPHIC] [TIFF OMITTED] T4893.085
    
    Mrs. Miller. All right. Thank you very much.
    And we're going to--I'm certainly going to keep my 
questions to a bare minimum here in the interest of time. I 
should say my colleagues have to catch a flight tonight, and we 
know what traffic is like on I-94, so we're going to wrap this 
up in about 10 minutes here.
    But I might ask generally, I guess of the panel. I notice 
there was quite a bit of difference between Attorney General 
Cox's comments about whether the EPA or Coast Guard should be 
the lead agency for compliance, as well as quite a bit of 
difference of opinion between some of the panel now and the 
previous panel about the Senate bill 363.
    And I think Mr. Schornack mentioned that he thought the 
Coast Guard, not the EPA, should be the agency regulating 
ballast water. I guess I'm just trying to get a sense of 
everyone's feeling there. Should it be the Coast Guard or the 
EPA?
    Do you want to start with that, Mr. Schornack?
    Mr. Schornack. I'd be pleased to start there.
    Chair Miller, Congress has already spoken to the lead 
agency and what act is to be employed in the regulation of 
invasive species or in the case of ships' ballast water, and 
that's--they've chosen the Coast Guard. And the Coast Guard has 
ample authority to board ships. Foreign vessel captains are 
familiar with them.
    We have case--if they were only to get off the dime. I 
think the real problem here is time and that is moving too 
slowly. I think you heard Commander Moore speak very 
articulately to the scientific aspects of the regulation of 
ballast water, along with Mr. Brandt from NOAA. They've been 
working very closely together. And the Coast Guard is the right 
agency. They deal with ships.
    The EPA has very little experience with ships. They've been 
reluctant to engage in the business of regulating ballast 
water. It even took a judge in San Francisco to basically say 
that the Clean Water Act applied. And the very programs under 
the Clean Water Act are not designed to fix--in terms of the 
NPDES program, the Pollutant Discharge Elimination System, 
that's designed to deal with a given waterway with total 
loadings of chemical pollutants to a given waterway. And it 
deals with fixed sources, not mobile sources.
    It's also delegated to all of the States, including all of 
the--or, delegated to States, including all of the eight Great 
Lakes States have delegated authority. That means, as Kathy 
Metcalf pointed out, that you could end up with a patchwork 
quilt of regulations that would make it very difficult to 
achieve the goal of closing the door to invasives, but keeping 
them open to commerce, because the ships would not be able to 
meet all of these varying requirements. And with that, I really 
think that.
    And there's also the prospect of delays in terms of 
litigation under the Clean Water Act. I think there have been 
problems with litigation. That's how we wound up with this 
judge in the first place deciding that the Clean Water Act 
should be employed.
    But I think a good, strong message to the Coast Guard, 
putting a single agency in charge, one that's familiar with 
this problem, is the right way to go.
    Mrs. Miller. OK.
    Ms. Metcalf. In the interest of I-94, I'll second it, 
with--to Mr. Schornack's comments. I'll second what he said, 
with this specific comment: absolutely the Coast Guard should 
be the lead agency. I would question whether or not S. 363 
really prohibits the EPA from participating. What I would 
suggest is that it charges the Coast Guard with creating and 
implementing the standard. And I would hope most certainly, and 
I know my organization--and I'll leave it to Mr. Weakley to 
refer to his position on this--is we would expect the EPA to be 
consulted on this, most definitely, because that is where the 
expertise is in the Federal Government for establishing 
environmental standards. But that is not where the expertise is 
in regulating ships.
    The other point I would make, is that there is a need, as 
Commander Moore said, for the standard to be set in a 
legislation. If you think it's been slow thus far, it's going 
to be just as slow because NEPA, from what I'm told by the 
agencies, creates a more time-consuming process for a new 
standard to be created than would be the case if the standard 
was included in the legislation.
    Mrs. Miller. Thank you.
    Mr. Weakley.
    Mr. Weakley. Panel, I would certainly echo the comments 
that preceded mine. I would add to that the matter of 
practicality and enforcement regime, as someone that's been an 
inspector for the Coast Guard, and also someone that's been 
inspected as a vessel operator, the Coast Guard is trained in 
inspecting vessels. They go on to enforce a myriad of--in fact, 
we'll tell you it's for all applicable U.S. laws. It's one-stop 
shopping. I think it's a far more efficient system than what 
we'd incur under an EPA and PDS permit process. So I think that 
from enforceability and visibility, I think the Coast Guard is 
the more practical agency to be the lead.
    Mrs. Miller. Thank you. Do the other two have an opinion on 
that particular question.
    Mr. Dinsmore. Madam Chair, I know enough to know--to say 
when I don't know. We don't have a policy per se on who should 
be the regulatory authority, the EPA or the Coast Guard. Our 
concerns are mainly--when I say our, I'm referring to MUCC, are 
mainly with regard to enforcement of regulations. Regardless of 
who the regulatory body is or may be, we would like to see 
those regulations enforced to the fullest extent. That's our 
main concern here.
    Mrs. Miller. Thank you.
    Mr. Brauer. Madam Chair, the Michigan Council of Trout 
Unlimited does not have a policy with respect to the specific 
question. I will say that from my own belief, the Coast Guard 
is best suited to enforce the regulations, and perhaps the EPA 
is best suited to help them establish the standards under which 
ballast water can be regulated.
    Mrs. Miller. Thank you, thank you.
    Member Lynch.
    Mr. Lynch. Thank you, Madam Chair, I just have one 
question.
    Mr. Schornack, in your testimony, it's on page 3, you say 
that the United States wants the ballast--the standard. The 
discharge standard that the IMO adopted is weaker than what the 
United States wanted and has been questioned by many experts as 
not being fully protective of the Great Lakes. I wonder if you 
could just sort of give me the delta. What's the difference 
between what is our ideal, and what was actually adopted?
    Mr. Schornack. Well, sure, I can.
    Mr. Lynch. Thank you.
    Mr. Schornack. The Coast Guard was of course--which has 
been the lead agency in charge of this issue for over 15 years, 
was chosen by the President to lead the American delegation to 
the International Maritime Organization Conference last year. 
Of course, that's a branch of the United Nations. And there are 
many, many countries involved.
    But the standards that the United States took to that 
convention, was 100 fold--100 times tougher in terms of the 
numbers of creatures per volume of water. If it was 100--just 
using an example, without--I can't pull the numbers right out 
of my head here. But let's say it was 100 for--the IMO was 100, 
it was 10 times less for the United States.
    So in the end, the negotiated standard at the conference 
was in fact watered down. And I'm not an expert enough to say 
that the standard achieved in the IMO convention was--is not 
protective at all, but I have heard experts say that they're 
very disappointed with the IMO standard. They do not feel that 
it is much more protective than ballast water exchange, which 
is what we have today.
    Mr. Lynch. OK. Well, thank you. That's helpful.
    I yield back.
    Mrs. Miller. Representative Westmoreland.
    Mr. Westmoreland. Thank you, Madam.
    Let me just make a comment about the EPA versus the Coast 
Guard. The EPA's position, and I'm not speaking for them, but I 
can just imagine that theirs would only be on the cleanliness 
of the water and have nothing to do with any kind of organism 
or anything else coming in the water. In fact, you might find 
yourself protecting these species over here if you get the EPA 
involved in that.
    Mr. Dinsmore, one question. In your written statement that 
you submitted, you had that there's an annual cost of $137 
billion. Is that a misprint? Is that supposed to be million, or 
is that truly billion dollars?
    Mr. Dinsmore. I'm looking for that right now.
    Mr. Westmoreland. It's on the first page.
    Mr. Dinsmore. I don't have that here in front of me. I'm 
trying to find that right now. The statement that we have, the 
official statement that was printed out and given copies to the 
representatives or to the committee, was not developed by me. 
It was developed by our associate. And I don't have that here 
in front of me unfortunately.
    I do know that--was that in regard to the zebra mussel 
period, or the invasive species as a whole? I know the national 
total is in the millions.
    Mr. Westmoreland. It just says over 160 invasive species 
have entered the Great Lakes ever since the opening of the St. 
Lawrence Seaway in 1959, with control costs estimated at $137 
billion per year.
    Mr. Dinsmore. I can say I've heard that number tossed out 
before. I can't say that specific one, unfortunately, because I 
did not draft those comments there in front of you.
    I do know that the control costs that are being figured, 
are not direct costs borne by the persons whose control that 
zebra mussel or whatever it may be that has the problem right 
there in front of them. It's the overall costs, costs from loss 
of activity, costs in direct control, indirect costs that are 
borne by the manufacturer or the industry as a whole. They do 
total into the billions at that point. I'm not sure of the 
exact figure unfortunately for you.
    Mr. Westmoreland. Let's deal with this $137 million, it's 
still----
    Mr. Dinsmore. It's still a large number, yes.
    Mr. Westmoreland. It's still a lot of money. And I'm just 
wondering how much of that would be local funds, and how much 
of it is either State or Federal funds? I don't suppose you 
would know that either, would you.
    Mr. Dinsmore. I know a lot--well, in my short bio that was 
provided to you, which I heard for the first time now as well. 
I didn't--before coming here, I didn't see----
    Mr. Westmoreland. That's OK.
    Mr. Dinsmore. Until just recently, I sit on the Scientific 
Advisory for the Great Lakes Fishery's Trust. And I know that 
as a trust we dedicate or have dedicated millions of dollars 
toward research in regards to invasive species. So that's one 
of those. You know, I'm sure there's a nonprofit one there as 
well. Anglers of Michigan don't do--dedicate quite a bit of 
their license fees toward research and other control measures. 
I didn't see if anybody mentioned before that type of program. 
I don't know the exact breakdown, but I do know that it's a 
collaborative effort between both State, Federal, and non-
profit realms.
    Mr. Westmoreland. And one last question. Mrs. Metcalf, I 
hope you can answer this. When you were taking in ballast water 
or putting out ballast water, does it use the same port for 
taking it in as putting it out? Does it have an intake and 
outtake, or does it just have one that serves as both.
    Ms. Metcalf. Generally it can--depending on ship type, but 
generally it's the same inlet and outlet. However, when a ship 
conducts an exchange, particularly if it's of a type known as 
flow through or dilution, the ballast water may actually come 
in through the sea chest and below the water line, but exit 
through the tank top as it's being pushed out of the tank by 
the sea water coming in.
    But relative to that, back to treatment technologies, 
because most ballast water does traverse through common piping 
from a common inlet and outlet, that's why we want to hit the 
treatment right there at that point.
    Mr. Westmoreland. Good. And I was thinking, you know, a 
backwash type situation. If you had an inlet and an outlet, you 
know, you could hook something up and continually backwash it 
without, you know, actually draining it. I mean, you would have 
a source to get it into a filtering system or something without 
putting it back into the water.
    Ms. Metcalf. Right. Yes, sir. In fact, a number of the 
treatment systems that are being tested on board right now have 
an applicator. You don't even have to go through a loop. You've 
got a certain application rate for, for instance, ultraviolet 
or heat or physical separation that allows us--hopefully will 
allow us, even on the larger ships, to hit the ballast water as 
it's moving past into the tanks.
    Mr. Westmoreland. Thank you, ma'am.
    No further questions, Madam Chair.
    Mrs. Miller. All right. Thank you very much.
    I certainly want to thank again our witnesses. It's been 
very, very enlightening. And if any of the committee members 
have further questions, we'll submit them to you, and perhaps 
your could answer them for us, and we would put them in the 
record. I want to be very helpful.
    I want to again thank our gracious host, and the 
hospitality that's been offered to the subcommittee by the 
Anchor Bay High School and Anchor Bay School District, and 
Principal Stefanac as well, and all of the students. So we 
certainly appreciate the attendance today.
    And with that, I will call the meeting in adjournment.
    Thank you very, very much.
    [Whereupon, at 4:37 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
